<html>
<title> - LEGISLATIVE HEARING ON SEVEN COMMUNICATIONS BILLS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





           LEGISLATIVE HEARING ON SEVEN COMMUNICATIONS BILLS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 13, 2016

                               __________

                           Serial No. 114-132




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-502                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                            
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
















  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................    30
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    31
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    33
    Prepared statement...........................................    34
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, prepared statement..............................   133
Hon. Eliot L. Engel, a Representative in Congress from the State 
  of New York, prepared statement................................   134

                               Witnesses

Hank Hunt, parent of Kari Hunt...................................    36
    Prepared statement...........................................    38
Melissa Smith, Treasurer, Kelsey Smith Foundation and parent of 
  Kelsey Smith...................................................    43
    Prepared statement...........................................    45
Steve Souder, Director, Fairfax County, Virginia 911 Center......    51
    Prepared statement...........................................    54
Nathan Wessler, Staff Attorney at the ACLU Speech, Privacy and 
  Technology Project.............................................    57
    Prepared statement...........................................    59
    Answers to submitted questions...............................   174
Abigail Medina, Trustee, San Bernardino City Unified School 
  District.......................................................    73
    Prepared statement...........................................    74
Katie McAuliffe, Federal Affairs Manager, Americans for Tax 
  Reform and Executive Director, Digital Liberty.................    75
    Prepared statement...........................................    79
    Answers to submitted questions...............................   178
B.A. Finley, Criminal Investigations Division, Johns Creek Police 
  Department, Johns Creek, Georgia...............................   102
    Prepared statement...........................................   105
    Answers to submitted questions...............................   181
Scott Bergmann, Vice President of Regulatory Affairs, CTIA--The 
  Wireless Association...........................................   109
    Prepared statement...........................................   111
    Answers to submitted questions...............................   183
Dan Holdhusen, Director of Government Relations, Good Samaritan 
  Society........................................................   118
    Prepared statement...........................................   130

                           Submitted Material

H.R. 2031........................................................     4
H.R. 3998........................................................     8
H.R. 4111........................................................    15
H.R. 4167........................................................    17
H.R. 4190........................................................    20
H.R. 4884........................................................    24
H.R. 4889........................................................    27
Statement of The Leadership Conference on Civil and Human Rights, 
  submitted by Ms. Eshoo.........................................   135
Statement of the Lifeline Connects Coalition, submitted by Ms. 
  Eshoo..........................................................   137
Statement of the Multicultural Media, Telecom and Internet 
  Council, submitted by Ms. Eshoo................................   140
Statement of the National Association for the Advancement of 
  Colored People, submitted by Ms. Eshoo.........................   142
Statement of the National Congress of American Indians, submitted 
  by Ms. Eshoo...................................................   144
Statement of Public Interest Groups, submitted by Ms. Eshoo......   149
Statement of Senator Greg Smith, submitted by Mr. Walden.........   152
Statement of Hon. Louie Gohmert, submitted by Mr. Walden.........   158
Statement of Mr. Pai of the Federal Communications Commission, 
  submitted by Mr. Walden........................................   161
Statement of the Evangelical Lutheran Good Samaritan Society, 
  submitted by Mr. Walden........................................   168
Statement of Messrs. O'Rielly and Pai, Commissioners of the 
  Federal Communications Commission, submitted by Mr. Walden.....   169
Statement of the Taxpayers Protection Alliance, submitted by Mr. 
  Walden.........................................................   171
Statement of 60 Plus Association, submitted by Mr. Walden........   172
Statement of Frontiers of Freedom, submitted by Mr. Walden.......   173

 
           LEGISLATIVE HEARING ON SEVEN COMMUNICATIONS BILLS

                              ----------                              


                       WEDNESDAY, APRIL 13, 2016

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2322 Rayburn House Office Building, Hon. Greg Walden 
(chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Shimkus, 
Blackburn, Lance, Guthrie, Olson, Pompeo, Kinzinger, Bilirakis, 
Johnson, Ellmers, Collins, Cramer, Eshoo, Doyle, Welch, 
Yarmuth, Clarke, Loebsack, McNerney, and Pallone (ex officio).
    Staff present: Rebecca Card, Assistant Press Secretary; 
Gene Fullano, Detailee, Telecom; Kelsey Guyselman, Counsel, 
Telecom; Grace Koh, Counsel, Telecom; David Redl, Chief 
Counsel, Telecom; Dan Schneider, Press Secretary; Gregory 
Watson, Legislative Clerk, Communications and Technology; Jeff 
Carroll, Minority Staff Director; David Goldman, Minority Chief 
Counsel, Communications and Technology; Tiffany Guarascio, 
Minority Deputy Staff Director and Chief Health Advisor; Jerry 
Leverich, Minority Counsel; Lori Maarbjerg, Minority FCC 
Detailee; Ryan Skukowski, Minority Policy Analyst; and Andrew 
Souvall, Minority Director of Communications, Outreach and 
Member Services.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

     Mr. Walden. We are going to call to order the subcommittee 
on Communications and Technology. I know we are shy one witness 
whom we are trying to locate. Apparently there are some issues 
getting into the building today with everybody in town. So we 
are going to proceed with the testimony of our witnesses and 
our opening statements, and we have somebody out looking for 
Ms. McAuliffe, and hopefully this will time out. Well, with 
seven bills on the agenda we felt it important to move forward.
    So, and maybe we can close those doors too, if somebody on 
the staff can--yes, thank you. Well, good morning. Today's 
hearing will examine seven important bills all seeking to 
improve the way our communication laws work and better reflect 
modern technology and consumer expectations. Two of these bills 
deal with important public safety issues and how to improve 
emergency response when it matters most. First, the Kelsey 
Smith Act sponsored by Representative Kevin Yoder gives law 
enforcement the tools to locate victims in emergencies using 
location data from their cell phone providers. By creating a 
very narrow set of circumstances in which law enforcement can 
access these type of data, the bill seeks to protect the 
privacy of users while still allowing access when the situation 
demands it.
    This bill utilizes existing technology to help law 
enforcement better respond when someone is in serious danger. 
It is important to note, however, that the legislation does not 
place the burden of liability on cell phone carriers. The 
decision is in the hands of law enforcement, and carriers 
should be able to hand over the data without fear of a lawsuit.
    I intend to offer an amendment at subcommittee markup that 
will make sure that a carrier's customer service representative 
isn't faced with making a decision about whether complying with 
a request from law enforcement opens the company or individual 
up to liability.
    The Kelsey Smith Act is already law in 22 of our states 
including in my own state of Oregon, where it passed in 2014. 
So the bill we are looking at today mirrors much of the 
language in the Oregon statute giving law enforcement the 
ability to act quickly when every second counts, but only, only 
in narrow circumstances of a true emergency.
    It is important to note that this legislation as being 
proposed here today passed unanimously through both the Oregon 
House and the Oregon Senate and was signed into law by a 
Democratic governor demonstrating that this is not a partisan 
issue, but it is good policy.
    Another important piece of public safety legislation before 
the committee today is Kari's Law, which requires that multi-
line telephone systems typically found in hotels, offices, and 
schools have a default configuration to dial out to 911 without 
any additional prefix required. To quote FCC Commissioner 
Jessica Rosenworcel, you may only call 911 once in your life, 
but it will be the most important call you ever make.
    As Kari's father will testify today, children are taught 
from an early age to dial 911 in an emergency. There should be 
no question that when they do so they will reach the emergency 
dispatcher. The simple fix that this bill provides, one that 
has been already implemented by many MLTS users, has the 
potential to prevent another tragedy like the one that happened 
to Kari Hunt.
    I would like to especially thank Kari's father, Mr. Hunt; 
Kelsey's mother, Mrs. Smith, for agreeing to testify today. 
While your losses must be very difficult to discuss in public, 
your testimony is certainly important in our process here as a 
resource for the subcommittee as we work on this legislation. 
So we are very thankful that you are willing to be here.
    We are also going to look at a bill from Representative 
Austin Scott which caps the Lifeline portion of the Universal 
Service Fund. In many ways I wish we didn't have to take up 
this piece of legislation, take this step we are doing today. 
Capping the fund is well within the authority of the Federal 
Communications Commission and something that they came close to 
doing in the most recent Lifeline reform order. Unfortunately 
that did not happen. As a result we are left with a so-called 
budget for the fund, a provision that requires the FCC to take 
note when annual Lifeline spending exceeds $2 billion and have 
the staff explain why that spending is so high. That is it. The 
FCC can basically blow right through its ``budget'' by as much 
as it desires.
    I don't think this is the way government should be handling 
the American people's dollars with cavalier disregard for basic 
fiscal discipline. I want to be clear, we do not support 
eliminating the Lifeline subsidy. This is an important program 
for those that are truly eligible. We are not opposed to the 
mission of Lifeline. Universal connectivity is a core principle 
in this country, particularly for those who need it most like 
children from low-income families.
    What we cannot support, however, is a fund that lacks 
external controls and is susceptible to waste, fraud, and 
abuse. And we have seen in the past how rapidly this fund can 
expand. I believe it is our duty and a duty to our constituents 
to make sure that their money is only spent responsibly.
    So the reforms that the FCC has adopted over the past few 
years, including some adopted this month, are certainly 
positive steps toward a more accountable fund. But until there 
are better, more effective guardrails in place there is nothing 
to prevent the FCC from spending and spending and spending, 
placing an even greater burden on American household budgets 
who have to assume those costs. Real budgets that can't simply 
keep spending other people's money is what we need.
    In addition to these three bills, we will look at a bill to 
encourage innovative solutions to the spectrum crunch, a 
problem that we have been spending a great deal of time on in 
our subcommittee. We will look at Ranking Member Pallone's bill 
to improve post-disaster communications. That is something that 
he is unfortunately all too familiar with after Superstorm 
Sandy wreaked havoc across his district and all of New Jersey.
    We will also consider a bill to allow skilled nursing 
facilities to improve their broadband connectivity, and 
finally, we will look at a bill to increase penalties for 
criminals who spark an unnecessary and dangerous law 
enforcement response by falsifying caller ID.
    So I would like to thank all the sponsors on both sides of 
the aisle for bringing these bills to our subcommittee, and I 
want to thank the witnesses that we have before us today.
    [The bills H.R. 2031, H.R. 3998, H.R. 4111, H.R. 4167, H.R. 
4190, H.R. 4884, and H.R. 4889 follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Mr. Walden. With that I would yield back the balance of my 
time and recognize the distinguished ranking subcommittee 
member from California, Ms. Eshoo.

HON. ANNA G. ESHOO, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
                         OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, and good morning to 
you, and thank you to the panelists for being here today 
especially on the two bills that the chairman raised first in 
his opening comments. We appreciate it. We are advancing 
several bipartisan bills today that are going to make progress 
in a number of critical areas.
    I am disappointed that the subcommittee has once again 
chosen to target the FCC's Lifeline program. The name of the 
program is highly instructive, Lifeline. And we know, I think, 
better than the rest of the entire Congress that because of the 
issues that we deal with that wireless mobile services today 
are essential in our day-to-day lives for everything across the 
board. Whether it is commerce, employment, employee, shopping, 
education, you name it, we are all dependent upon it and so are 
poor people in our country.
    So I think that this bill imposing an arbitrary cap on the 
Lifeline program of $1.5 billion and eliminate the program's 
support for voice-only mobile services within two years and 
prohibiting Lifeline from being used to subsidize the sale of 
lease of a mobile phone is damaging to a part of our population 
that needs these services just as much as we do, just as much 
as our children do.
    Really not any different, if not even more, and if it were 
enacted into law, a CURB Lifeline Act would deny millions of 
low-income Americans access to basic communication services and 
that includes, as I said, so many of the functions that we 
undertake in life every day. According to the Universal Service 
Administrative Company, only 33 percent of eligible households, 
or approximately 13 million American households, participated 
in the Lifeline program as of October 2015. This means that 
more than 26 million households qualified for the program but 
didn't participate.
    So capping the Lifeline program would prevent these 
eligible households from accessing the Lifeline service if they 
apply after the budget cap has been reached. And just 
mentioning about a budget, we don't have a budget. We are not 
doing a budget. So now, if a household happens to fall on hard 
times, a cap on Lifeline's budget would arbitrarily punish 
these Americans. And I just think that this is eminently unfair 
and I think that our committee can do much, much better than 
this.
    So I am disappointed. I hope Mr. Chairman that you and our 
colleagues will work with us to see if we can't come up with a 
better way of addressing this. I know that there has been 
things that have gone wrong with the program. There is 
something that has gone wrong with every program in the country 
and it is up to Congress to reform and as well as the executive 
branch to do what they need to do.
    Just last week, the FCC fined a Lifeline provider $51 
million for enrolling ineligible and duplicate customers, the 
largest fine that the Commission has proposed against a 
Lifeline provider. So we are not opposing to going after bad 
actors when taxpayer dollars are involved in it.
    So I hope that we can work together on this, because I 
think it is a historic moment for those who understand that 
expanding broadband to low-income households is going to help 
lift our country up. We know, and even in the presidential 
campaign that there is a great debate about inequality in our 
country. This increases the inequality. This creates an even 
larger gap. This doesn't do anything to lessen that gap.
    So thank you, Mr. Chairman, for holding this hearing today. 
Again, thank you to the witnesses and to the sponsors of 
legislation, the bills that are before us, and with that I 
yield back. Thank you.
    Mr. Walden. I thank the gentlelady for her comments. I 
recognize the gentlelady from Tennessee, the----
    Ms. Eshoo. Oh, Mr. Chairman, I am sorry.
    Mr. Walden. Yes.
    Ms. Eshoo. Can I ask for unanimous consent to place the 
opening statement----
    Mr. Walden. Without objection.
    Ms. Eshoo [continuing]. Of Ms. Matsui in the record? And 
also several letters from business, from National Congress of 
American Indians--well, there are----
    Mr. Walden. Without objection.
    Ms. Eshoo. I think, five letters here I would like to 
submit for the record.
    Mr. Walden. We have reviewed them.
    Ms. Eshoo. Thank you.
    Mr. Walden. Without objection, they will be entered into 
the record at the appropriate location.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. We will now recognize the gentlelady from 
Tennessee, the vice chair of the full committee Ms. Blackburn, 
for 5 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. And I want to say 
welcome to our witnesses. Mr. Hunt, I want to especially 
welcome you and thank you for your willingness to share your 
story. We are appreciative.
    I want to also mention Ms. Matsui's Spectrum Challenge 
bill. This is something that I am pleased that we are going to 
discuss today. I think it does really focus the efforts on 
spectrum efficiency, and I am appreciative of that. We need to 
discuss spectrum efficiency.
    I also had noted the CTIA report which talks about the 350 
megahertz of spectrum that are going to be needed by 2019. And 
whether it is that report or looking at the Cisco estimates of 
how many wireless devices, the Internet of Things, the 
utilization expansion of spectrum, that is something we need to 
be thoughtful as we make decisions and approach this. We don't 
want to get into a spectrum crisis or a spectrum crunch. We 
note to each of you that us being diligent and doing the due 
diligence, if you will, on this issue is going to be important.
    So we are going to look forward to discussing that further. 
I will yield, Mr. Chairman, to any members on our side that--
Mr. Pompeo is seeking time. I yield the remainder to Mr. 
Pompeo.
    Mr. Pompeo. Thank you, Ms. Blackburn. And thank you, Mr. 
Chairman, for holding this hearing today. I want to talk about 
an important piece of legislation that was originally offered 
by Representative Yoder, my colleague from Kansas, on which I 
was an original cosponsor.
    It has now been close to eight years since Kelsey Smith, an 
amazing young Kansas woman, was abducted from a shopping center 
parking lot in broad daylight. This horrible crime was captured 
on security camera outside the Target store she was visiting 
that day to purchase an anniversary gift for her boyfriend.
    Her abduction wasn't done under the cover of night and 
there was no question about the urgency of the situation. And 
it was at this moment the clock started ticking. Three hours is 
what law enforcement tells you is the critical window to 
increase the chances of returning an abducted child alive. A 
hundred and eighty minutes is not a lot of time, and I am sure 
that for a parent praying for the safe return of their child, 
their son or daughter, each second that slips by is pure hell.
    In this case it took four days, four days to identify the 
location of Kelsey. It is just Kansas common sense that law 
enforcement should have a way to quickly find the location of a 
wireless telecommunications device if a person has been 
determined to be at risk of death or serious physical harm due 
to being kidnapped or reported missing. This bill, the Kelsey 
Smith Act, does just that. At the same time it maintains 
privacy protections for all the other information including 
calls made, received, and text messages. The only thing that 
would be disclosed is the location, the all-critical location 
of that cell phone.
    Mr. Chairman, 22 states have done this. It is truly a shame 
that we have not been able to pass this legislation at the 
federal level. It is tragic indeed. But Kelsey's legacy is not 
one of tragedy. Great things have happened all across the 
country. There was a 6-year-old boy saved in your state, Ms. 
Blackburn, in Tennessee, from a suspected rapist because the 
state had implemented the Kelsey Smith Act. It is a legacy of 
countless others who live today because of her work and the 
work of her parents, one of whom will be testifying before us 
this morning.
    I strongly support this legislation and encourage my 
colleagues to join me in urging for its swift passage, and with 
that I yield back.
    Mr. Walden. The gentleman might want to yield to Mr. Latta 
who is seeking time as well.
    Mr. Pompeo. Yes, it is Ms. Blackburn's time. I will yield 
to Mr. Latta.
    Mr. Latta. Well, I appreciate the gentleman from Kansas for 
yielding. And I thank the chairman for holding today's hearing 
and on these seven bills which is aimed at advancing public 
safety reform and outdated FCC programs.
    And if I could just start, in my 11 years that I was in the 
Ohio General Assembly I chaired the Judiciary Committee and I 
chaired the Criminal Committee in the State House. And I 
appreciate the family for being here because I know, listening 
to the testimony for 11 years I unfortunately saw the most 
horrific and the most tragic events that occurred in the state 
of Ohio, and I appreciate you all for being here.
    And again, the horrific tragedies that brought forth the 
Kelsey Smith Act and Kari's Law Act both have tangible 
solutions and will help save lives. In case of emergency 
situations we need to ensure assistance is easily accessible 
and provide law enforcement the necessary information to locate 
individuals in order to prevent serious physical harm.
    Again, I commend these families for sharing their stories 
and seeking to protect others by urging changes in the law. I 
look forward to hearing from all of our witnesses and hope 
today's discussion generates ideas that will provide public 
safety and accountability at the Commission. And with that Mr. 
Chairman, I yield back the balance of my time.
    Mr. Walden. I thank the gentleman, and I will now recognize 
the ranking member of the full committee, the gentleman from 
New Jersey, Mr. Pallone, for opening comments.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman and our Ranking Member 
Eshoo, and thank you to all the witnesses for being here today. 
I would like to start by acknowledging that the families of 
Kari Hunt and Kelsey Smith are in the hearing room and 
testifying today, and I understand that a terrible tragedy has 
befallen your families and would like to thank you for your 
courageous activism on these issues.
    Many of the bills we are discussing today deal with public 
safety issues, which is particularly timely since this is 
National Public Safety Telecommunications Week. 
Telecommunications plays a critical role in public safety, and 
ensuring people have access to communications services can make 
all the difference during an emergency.
    We learned firsthand in New Jersey during Hurricane Sandy 
that calling for help is difficult when the power is out, and 
when the cell towers are also down it is nearly impossible. We 
need to be better prepared because no one should be left with 
silence on the other end of the call when they dial 911.
    I would like to thank Chairman Walden for adding three 
Democratic bills to today's hearing including my bill, the 
Securing Access to Network in Disasters called the SANDy Act. 
The bill has a number of straightforward proposals that, like 
the other bills introduced by my Democratic colleagues, should 
garner bipartisan support.
    The SANDy Act would recognize the critical role that all 
communication providers, broadcasters, cable, and 
telecommunications serve in emergencies, but most notably the 
bill would ensure consumers have access to wireless service 
even if their particular wireless network goes down.
    I look forward to hearing more about all the other bills on 
today's agenda. Unfortunately, I must express serious concerns 
about one bill, H.R. 4884, which would cap the Lifeline 
program. In some ways it makes sense that a Lifeline bill is 
teed up with the other public safety bills we are considering 
today because our phones truly are lifelines. They are the 
essential lifesaving devices that we keep with us every day.
    But unlike the other bills that we are considering today 
that propose ways to improve public safety, this bill to curb 
the Lifeline program would take essential lifesaving devices 
away from the people who need help the most. Millions of low-
income Americans rely on this program to provide them with the 
basic communication services that most of us take for granted 
like the ability to call 911.
    The provisions of H.R. 4884 would gut the Lifeline program 
by setting a cap, forcing a rapid phase-out of voice services, 
and preventing the subsidy for being used towards equipment 
like handsets. Each of these provisions alone would be bad 
enough. However, taken together these provisions will rip 
phones out of the hands of millions of Americans.
    If Republicans truly want to control the costs in the 
Lifeline program, their blunt force bill is the wrong approach. 
There is a better way. Let us work together to address 
inequality, to improve the economy, to find more people jobs, 
and the best way to lower the cost of the program is to lift 
people up not to take away their connection to a better life.
    I look forward to today's discussion, and I yield the 
remainder of my time to Mr. McNerney.
    Mr. McNerney. I thank the ranking member. I want to talk 
about the Lifeline program. For over 30 years millions of low-
income Americans have been able to access phone service 
strictly because of the Lifeline program. Families that are 
Lifeline-eligible are low income. That means for a family of 
four an income of $32,800 a year.
    So for these people, the current subsidy is $9.25 a month 
and that is just for the phone section. H.R. 4884 will limit 
the number of families that are eligible for this program, and 
for these families the Lifeline program makes an enormous 
difference. It allows Americans to apply for jobs. It allows 
seniors to manage health care. It allows loved ones to stay 
connected. And it gives families and individuals access to 911.
    Mandating a cap on the Lifeline program, eliminating 
standalone mobile service and prohibiting funds from being used 
for devices would have a devastating impact on families of low-
income Americans. A better way to control costs of the Lifeline 
program is to lift people up out of poverty. Let us work 
together to close the wage gap, increase the minimum wage, and 
start infrastructure projects that will put these folks to 
work.
    So I think there is a much better way to go about this than 
capping a very critical program like Lifeline, and I yield back 
to the ranking member.
    Mr. Pallone. And I yield back, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you Mr. Chairman and Ranking Member Eshoo. And thank 
you to all of the witnesses for being here today. I'd like to 
start by acknowledging that the families of Kari Dunn and 
Kelsey Smith are in the hearing room and testifying today. I 
understand that a terrible tragedy has befallen your families. 
I would like to thank you for your courageous activism on these 
issues.
    Many of the bills we are discussing today deal with public 
safety issues, which is particularly timely since this is 
National Public Safety Telecommunications Week.
    Telecommunications plays a critical role in public safety, 
and ensuring people have access to communications services can 
make all the difference during an emergency. We learned 
firsthand in New Jersey during Hurricane Sandy that calling for 
help is difficult when the power is out. And when the cell 
towers are also down, it is nearly impossible. We need to be 
better prepared because no one should be left with silence on 
the other end of the call when they dial 911.
    I'd like to thank Chairman Walden for adding three 
Democratic bills to today's hearing, including my bill, the 
Securing Access to Networks in Disasters, called the SANDy Act. 
The bill has a number of straight-forward proposals that-like 
the other bills introduced by my Democratic colleagues-should 
garner bipartisan support. The SANDy Act would recognize the 
critical role that all communications providers--broadcasters, 
cable, and telecommunications--serve in emergencies, but most 
notably, the bill would ensure consumers have access to 
wireless service even if their particular wireless network goes 
down.
    I look forward to hearing more about all the other bills on 
today's agenda. Unfortunately I must express serious concerns 
with one bill--H.R. 4884, which would cap the Lifeline program.
    In some ways it makes sense that a Lifeline bill is teed up 
with the other public safety bills we are considering today. 
Because our phones truly are lifelines--they are the essential 
lifesaving devices that we keep with us every day.
    But unlike the other bills we are considering today that 
propose ways to improve public safety, the bill to curb the 
Lifeline program would take essential lifesaving devices away 
from the people who need help the most. Millions of low-income 
Americans rely on this program to provide them with the basic 
communications services that most of us take for granted--like 
the ability to call 9111. The provisions of H.R. 4884 would gut 
the Lifeline program by setting a cap, forcing a rapid phase-
out of voice services, and preventing the subsidy from being 
used towards equipment like handsets. Each of these provisions 
alone would be bad. However, taken together, these provisions 
will rip phones out of the hands of millions of Americans.
    If Republicans truly want to control the costs in the 
Lifeline program, their blunt force bill is the wrong approach. 
There is a better way. Let us work together to address 
inequality; to improve the economy; to find more people jobs. 
The best way to lower the costs of the program is to lift 
people up, not to take away their connection to a better life.
    I look forward to today's discussion.

    Mr. Walden. The gentleman yields back. Before I turn to our 
witnesses I would like to ask unanimous consent to enter into 
the record the following documents: a written statement from 
State Senator Greg Smith on the Kelsey Smith Act; a letter from 
Representative Gohmert supporting Kari's Law; a letter from FCC 
Commissioner Ajit Pai supporting Kari's Law; a letter from the 
Good Samaritan Society supporting H.R. 4111;, and a letter 
supporting H.R. 4884, the CURB Lifeline Act, from Taxpayers 
Protection Alliance, Sixty Plus Alliance, and Frontiers of 
Freedom.
    Without objection, those will also go into the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. We are now prepared to turn to our 
extraordinary panel of witnesses, and again we appreciate very 
much your being here. We look forward to all of your comments. 
As a precursor, you have to push a little button on the base of 
that microphone and you have to pull it fairly close for us all 
to hear it.
    And so we are going to start with Mr. Hank Hunt, father of 
Kari Hunt. Mr. Hunt, thank you again for being here. We are 
sorry for the tragedy that has befallen your family. We look 
forward to your testimony.

 STATEMENTS OF HANK HUNT, PARENT OF KARI HUNT; MELISSA SMITH, 
TREASURER, KELSEY SMITH FOUNDATION AND PARENT OF KELSEY SMITH; 
 STEVE SOUDER, DIRECTOR, FAIRFAX COUNTY, VIRGINIA 911 CENTER; 
NATHAN WESSLER, STAFF ATTORNEY AT THE ACLU SPEECH, PRIVACY AND 
  TECHNOLOGY PROJECT; ABIGAIL MEDINA, TRUSTEE, SAN BERNARDINO 
  CITY UNIFIED SCHOOL DISTRICT; AND KATIE MCAULIFFE, FEDERAL 
    AFFAIRS MANAGER, AMERICANS FOR TAX REFORM AND EXECUTIVE 
                   DIRECTOR, DIGITAL LIBERTY

                     STATEMENT OF HANK HUNT

    Mr. Hunt. Well, thank you. I hope I pushed that hard 
enough.
    Mr. Walden. Perfectly.
    Mr. Hunt. Good morning. I want to thank the committee for 
inviting me here and having us here for our testimony.
    As the chairman said, on December the 1st, 2013, I lost my 
oldest daughter to a vicious murder. She was stabbed to death 
by her husband with their children present. This is a little 
over 2 years ago and I still ask that if I stumble, understand, 
and if I hesitate, just bear with me.
    As this attack began, her 9-year-old daughter did what she 
was taught to do. She grabbed the phone and she called 911. It 
didn't work. She said she heard static. She tried again. There 
was nothing. She tried again and again, four times in total, 
nothing. When I arrived at the police station an hour or so 
after the event happened, my granddaughter sat on my lap and 
with a very defiant expression looked at me and she said, I 
tried but it wouldn't work, Papa. It was then I realized this 
had happened at a hotel, and this hotel requires an extra digit 
for an outside line and they utilize a multi-line telephone 
system, MLTS.
    And after I laid my daughter to rest I became determined 
that that was going to stop. I wasn't sure how to do it, but 
figured I would just take it as it came. We don't teach our 
children to dial an access number. It isn't always the number 9 
either. Some hotels, motels, office buildings, utilize the 
number 7 or the number 8.
    Even more confusing, I stayed at a hotel in Waco, Texas 
that instructed its guests on the face of the phone to call 
6821 in case of an emergency. I don't know who answers that. I 
didn't try it. I wasn't brave enough. I am now. I will test 911 
at any hotel I go to, and the one I am staying at now you 
cannot call 911.
    I started a Change.org petition. It is all I knew to do. 
And as naive as I guess I am at my age, I was wanting to get a 
hundred signatures, and I was going to march into my 
congressman's office with a hundred signatures and create a 
law. On my way here I checked that petition again and we are at 
550,000 almost. We are closing in on that. That I believe was 
the magic number because here I am. And being one that can be 
nervous a lot, when I approached my congressman about it--I 
finally got an invitation--I was surprised to be welcomed, and 
the interest that has been taken in this issue has been 
overwhelming and very pleasing.
    Kari's Law seeks three things: direct dialing of any phone 
anywhere, anytime without a prefix/post-fix number being 
required for a call to be connected; onsite notification, 
having a central point where all calls made to 911 from any 
phone on any particular MLTS will also alert someone on that 
site that a 911 call has been placed; and number three, no 
interference or redirection of a 911 call. Some hotels when you 
dial 911 it directs it to the front desk. That front desk clerk 
will answer that 911 call and then decide whether or not it 
should be taken further to a local PSAP, a public safety 
answering point. It is a very simple procedure which I have 
found very little to no cost to implement, since almost if not 
all MLTS systems are already capable of being programmed to do 
so. In the majority of cases it is simply a reprogram by 
keyboard.
    I have learned a lot in the past 864 days since my daughter 
passed away. People want this law. People will be greedy and 
may try to make a buck off of it. It needs to be done. It needs 
to be taken care of. It has been said the telecom industry will 
police itself without any laws or regulations requiring it to 
do so. Over the past 10 years they have been policing 
themselves, problems still exist. Red lights and stop signs do 
not save lives. It is the actions of the driver who is obeying 
the law. Laws are created when ethics fail and if that is what 
is required, then so be it.
    I want to thank Avaya Corporation, Conveyant Systems, 
Verizon Corporation, National Emergency Number Association and 
several other companies, and most of all the 911 community for 
taking the responsibility to resolve this matter. A special 
thanks to FCC Commissioner Ajit Pai who after being approached 
by Mark Fletcher, chief architect of public safety for Avaya 
Corporation, took a stance, and since his involvement numerous 
hotel chains have corrected this problem on their own. I want 
to mention Marriott Corporation for taking the lead. They have 
done that and they require it at any of their hotels, even the 
franchises, and on their monthly inspections that is part of 
their inspection.
    I will say this. Without the determination of Mark Fletcher 
we wouldn't be here today talking about this. I knew no way of 
how to get this done, and he contacted me approximately a week 
later and after discussion with him we took it forward. Kari's 
Law has been passed in Suffolk County New York, Illinois, 
Maryland, the State of Texas, and just recently the State of 
Tennessee, with legislation similar to Kari's Law being passed 
in Connecticut and Pennsylvania.
    In order for this to be consistent across the country we 
seek a federal act requiring the three things that Kari's Law 
asks. Efficient 911 can be deployed free with Kari's Law. It is 
a simple act, direct access, onsite notification, no 
interception. If we can't do this, if it can't be done, if it 
seems to be impossible, but then I feel that we need to remove 
those instructions from every police car, fire truck and 
ambulance in our country.
    I appreciate the time you have allowed me here and I will 
entertain any questions you might have.
    [The statement of Mr. Hunt follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mr. Walden. Thank you, Mr. Hunt. We appreciate your 
testimony, and your passion on this issue is very understood. 
We will now go to Ms. Melissa ``Missy'' Smith, treasurer of the 
Kelsey Smith Foundation and mother of Kelsey Smith. Ms. Smith, 
thank you for being here today. We are sorry for the tragedy 
your family has endured as well. We look forward to your 
testimony.

                   STATEMENT OF MELISSA SMITH

    Ms. Smith. Thank you, Chairman Walden. I would like to 
thank you and the other members for inviting me to come and 
speak today, and I would like to thank Congressman Yoder, 
Emanuel Cleaver, Representative Pompeo, and Representative Lynn 
for sponsoring this. I would also be remiss if I didn't thank 
former Congressmen Tiahrt and Moore who started this process 
when Kelsey was murdered.
    Kelsey Smith, she is the reason this legislation began in 
Kansas 7 years ago and to date has passed in 22 states. I am 
the mother of Kelsey Smith. Her story made national and 
international news when she was kidnapped in broad daylight 
from a Target store just 9 days after graduating from high 
school.
    What does a parent go through when a child is missing? You 
do not eat because you don't know if your child is eating. You 
do not sleep because you don't know if your child is sleeping. 
What took so long to find Kelsey? One word, Verizon. Let me be 
perfectly clear. In no way do we hold them responsible for 
Kelsey's death. They had nothing to do with that.
    What is this law and why is it needed? Federal law states 
that providers may release the location information. This law 
states they shall. We spend a lot of time, money and resources 
training our police. We do not spend that same time, money and 
resources training a customer service rep to answer a call at 2 
o'clock in the morning as to what a life emergency is.
    What about privacy? We are not asking for the call 
information. We are just asking where is that device. I don't 
care who you are texting. I don't care the numbers you are 
calling. I don't care what pictures you are taking. Where is 
that device? Once that information was released, within 45 
minutes Kelsey's body was found.
    What about police misconduct? We hear about that also. 
There has not been one instance of a reported case of police 
misusing this law. Does it work? Yes, it does. In Kansas, a 
suicide was prevented when a child left a note for their 
parents and they traced her phone and found her in time. An 
elderly stroke victim was found in time. That wasn't a way we 
had anticipated Kelsey's law being used, but he could only call 
his wife and they were able to find him and get him the medical 
attention he needed in time. And then last year, and this one 
makes me tear up, there was a baby found in 40 minutes. That 
baby was found alive; it had been carjacked--because my baby 
wasn't found alive.
    Much legislation is about numbers, so let me give you some. 
355.4 million wireless subscribers in the United States in 
December 2014. That is from the CTIA summary report. Forty-
seven percent of U.S. households in 2014 were wireless only. 
Two of our daughters don't have a land line. 4,176, that is the 
number of 17 to 24 year olds murdered in the United States in 
2007. Twenty thousand dollars, that is what it cost us to bury 
Kelsey.
    One hundred and twenty five is the number of detectives 
involved in her case. Eighteen different law enforcement 
agencies including the federal, county, and city agencies, 
multiple municipalities, two states, all tied up for four days. 
How much money and resources were spent on that of which I am 
very thankful because my daughter came home. Forty five 
minutes, that is how long it took to locate Kelsey once that 
engineer got to the tower.
    One, Kelsey, the reason this legislation began in 2009. 
Zero, that is the cost of implementing this law. It doesn't 
cost anything. There are not many times a legislator can pass a 
law, save a life and it doesn't cost you. Priceless, the value 
of the lives saved using the Kelsey Smith Act.
    When this law passed in Kansas I said to Senator Rob Olson 
at the time--he was the original sponsor who helped me with 
this--that maybe my baby laid out there for 4 days because God 
knew her mother had the mouth to get this done. And according 
to C.S. Lewis I will end with this. ``Experience: that most of 
brutal of teachers. But you learn, my God do you learn.'' 
Please learn from our experience.
    Thank you. And I will answer any questions you may have.
    [The statement of Ms. Smith follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Mr. Walden. Thank you, Ms. Smith. We will now turn to Mr. 
Steve Souder, the director of the Fairfax County, Virginia 911 
Center. Mr. Souder, thank you for being here. We look forward 
to your comments.

                   STATEMENT OF STEVE SOUDER

    Mr. Souder. Good morning. And Chairman Walden and Ranking 
Member Eshoo and distinguished members of the subcommittee, 
thank you for the invitation to speak at today's hearing. My 
name is Steve Souder and I am the director of the Fairfax 
County Department of Public Safety Communications, a community 
in which some members of this committee may reside.
    Over the course of the more than 50 years in 911 public 
safety communications, I have served in four public safety 
communications centers in the National Capital Region and have 
been fortunate to be the director of three. I have also been 
fortunate to participate in the national efforts to improve 
public safety communications, most recently as chair of the 
Federal Communications Commission's Task Force on Optimal PSAP 
Architecture, which addressed important issues for the 911 
community such as, but not limited to, cybersecurity, technical 
architecture in today's century, and of course the ever-
prevalent funding.
    I am honored to be here today to discuss the important 
legislation affecting public safety communications before this 
subcommittee and to answer any questions that you may have. My 
remarks will focus on H.R. 4167, Kari's Law. We just heard Mr. 
Hunt speak about this issue and I was welled with emotion as I 
heard him describe his ordeal.
    911 has earned the public's trust as the go-to number when 
there is something wrong. Simply 911, we all know it. It is, as 
others have said, on the side of every fire truck and police 
car, in the front page of every phone book in the United States 
of America. It does not say that in order to make a 911 call 
you have to use any kind of code, prefix or subtext. It is not 
required.
    911, the most recognized number in the United States of 
America, the number that all of us would go to if anything 
happened in our own communities, and a number which is called 
240 million times a year, 240 million times a year. No matter 
where you are when you expect and can call 911, it will work. 
That is the expectation. That was the expectation of Brianna 
when she called on behalf of her mother that it would work. And 
that is why, when she sat on her grandfather's lap and said, 
Daddy, or Granddad, it didn't work, that should not be the fate 
of any other person ever again.
    Many of you are familiar with the tragic story of Kari 
Hunt. Kari was assaulted by her ex-husband in a small hotel in 
Marshall, Texas, in 2013. Her 9-year-old daughter, Brianna, did 
exactly what she had been taught to do. She called 911. But 
because the hotel's phone system required a prefix to make 
outside calls, her repeated attempts to get help never went 
through. This is a situation that exists across the country 
where multiple line telephone systems are employed, including 
in hotels, colleges, corporate campuses, and indeed government 
buildings.
    I commend and appreciate Hank Hunt's efforts in this regard 
and I would like to also recognize FCC Commissioner Pai who has 
been mentioned previously for joining with him, Mr. Hunt, to 
advocate the hotel industry and multiple line telephone system 
manufacturers to make the changes required to enable direct 
dial to 911. Indeed, Commissioner Pai has reported that many 
national hotel chains have already changed their multiple line 
telephone systems to enable direct access to 911 including 
their owned and their franchised properties. This shows that it 
is possible to do so very easily and virtually without any 
cost.
    Kari's Law, introduced by Representative Gohmert, has 
bipartisan support and would be an important step in addressing 
this problem by requiring that all new multiple line telephone 
systems be configured by default to directly dial 911 without 
requiring any additional digit code or prefix. This would be a 
substantial improvement for 911 calls from MLTS systems, and it 
is also an opportunity to address important issues such as the 
delivery of accurate location information.
    When those 240 million 911 calls are made annually, they 
are answered by a 911 call taker or dispatcher that sits at a 
console in one of America's 6,100 911 centers. And as that call 
taker answers that 911 call, the very first question they ask 
is where is your emergency? They don't ask what. They don't ask 
why. And they don't ask how. They ask where, because of the 
location of the emergency is absolutely the single most 
important piece of information the call taker has to acquire.
    In addition to direct 911 access, MLTS phones traditionally 
lack another key feature: accurate information location. 
Example, before this meeting I walked down the hallway and 
there was an office door opened, and I asked the attendant 
there if I could use their phone. I had my uniform on. She said 
can I help you? And I said I would like to call 911. She said 
OK, and I dialed 911 and I got the very efficient U.S. Capitol 
police. I also dialed 9911 and I got the Capitol Police. I 
thanked her very much. When I asked the Capitol Police operator 
that had answered if they knew where this phone call was coming 
from, they said they knew the telephone number, meaning that I 
was calling from, but they would have to reference another list 
to identify in what office that telephone number terminated.
    I walked into the hallway. I then used my own cell phone 
and I dialed 911. It was answered by the Metropolitan Police 
Department's 911 center not far from where we sit today. I 
asked the gentleman that answered that call what location it 
showed that I was calling from. He said Number 50 Independence 
Avenue, Southwest. That is the location that we are at today. 
The Rayburn House Office Building stretches for two city 
blocks. It is at least four floors above ground and two floors 
below ground. And I asked, was there any indication on what we 
commonly call in the business the ANI or the ALI screen as to 
where at Number 50 Independence Avenue I was located, and he 
said no, sir.
    If I were having a heart attack or someone was having a 
heart attack and I called on their behalf, can you imagine the 
challenge that would exist in trying to locate one person in 
this building that is this large that provides no more accurate 
information than simply the address?
    This leaves the public in danger and public safety 
answering points, PSAPs, the first responders, expending 
significant resources to locate and provide emergency 
assistance to the scene. In order to ensure that every caller 
gets the help they need, every multiple line telephone system 
should transmit a dispatchable address where the call is 
actually coming from, such as the room number, the office 
number, so that responders can quickly locate the calling 
party.
    Additionally, while the bill eventually makes direct dial 
the default for all new multiple line telephone systems, there 
will still be a large number of embedded base of telephones 
that wouldn't support 911 dialing by default. Depending upon 
equipment cycles these systems may not be replaced for many 
years to come, allowing continued consumer confusion and most 
tragically delayed response.
    Whether a person can direct dial 911 should not depend upon 
where he or she is located, such as a hotel room or a 
dormitory, or how old the telephone is that they are calling 
from. Kari's Law is a great first step in what will hopefully 
lead to additional efforts to fully solve the 911 problems 
associated with multiple line telephone systems.
    Again I want to thank you for the opportunity to address 
the subcommittee for your work to improve public safety 
communications. I would especially like to thank Representative 
Eshoo as one of the four founding members of the Next 
Generation Congressional 911 Caucus, and I would also take the 
privilege of asking Mr. Pallone--I see that he has now left the 
dais--from my home State of New Jersey because he referenced a 
very important week in the 911 world and that is this week, 
National Public Safety Telecommunicators Week. The week that is 
set aside by the Congress and signed by the President to 
recognize those most unsung heroes in our profession, the 911 
call takers and dispatchers that serve the community and 
citizens that you men and women represent. Thank you.
    [The statement of Mr. Souder follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    Mr. Walden. You are welcome. Thank you for your testimony. 
That may also be a reason we are having all these bills up 
today, so thank you. I will now go to Mr. Wessler. Nathan 
Wessler is the staff attorney for the ACLU Speech, Privacy, and 
Technology Project.
    Mr. Wessler, welcome. We look forward to your comments on 
these pieces of legislation, and please go ahead, sir.

                  STATEMENT OF NATHAN WESSLER

    Mr. Wessler. Chairman Walden, Ranking Member Eshoo, members 
of the committee, thank you for the opportunity to testify 
today on behalf of the ACLU concerning H.R. 4889. Although we 
agree with the important goals of this legislation, we oppose 
it in its current form because it lacks sufficient safeguards 
against abuse.
    The tragedy that gave rise to this legislation today is 
truly, truly terrible. In emergencies where the safety of a 
person is in imminent jeopardy, we all want to ensure that law 
enforcement can quickly access cell phone location information 
to avoid this kind of a tragic outcome. Allowing companies the 
discretion to provide these records in an emergency is an 
effective mechanism for ensuring access while preventing the 
abuse that could jeopardize the safety of others.
    In 2015, just two service providers alone, AT&T and 
Verizon, processed more than 81,000 emergency requests for 
information. These and the other service providers maintain 
large law enforcement compliance teams that operate around the 
clock responding to requests at any hour in order to help avoid 
tragedies like the one that gave rise to this bill. This 
process has been refined and improved in recent years.
    The same features of cell phone location information that 
make it useful to law enforcement, the ability to track 
people's movements over time and to precisely pinpoint their 
locations, also trigger the protections of the Fourth 
Amendment. As the Supreme Court has recognized and lower courts 
have reaffirmed, government access to cell phone location 
information can invade reasonable expectations of privacy by 
laying bare some of the most sensitive aspects of our lives 
when we are at home, where we spend the night, which doctors or 
psychiatrists we visit and more.
    For that reason, any legislation allowing law enforcement 
access to location records in an emergency must include strong 
protections. Those protections are important to prevent false 
invocations of emergencies by police who want to avoid 
obtaining a court order or a warrant in a normal criminal 
investigation.
    Our written testimony includes examples of such abuse 
including cases where police obtained unfettered access to cell 
phone location information, but later admitted under oath that 
no emergency actually existed, and a case where police in 
California reportedly coerced a kidnapping victim into saying 
that she had been--sorry, coerced a person into saying she had 
been kidnapped falsely, and then sent a false emergency request 
for location information to the purported kidnapper's cellular 
service provider. Law enforcement agencies including the 
Department of Justice and the Reno, Nevada Police Department 
have themselves admitted to issuing emergency requests where no 
emergency in fact existed.
    Protections will also empower service providers to turn 
away requests from criminals and stalkers who attempt to 
impersonate law enforcement. Effective privacy safeguards can 
coexist with speedy emergency request procedures without 
interfering with law enforcement's important job of protecting 
the public.
    The ACLU has three recommendations for the committee. 
First, the committee should preserve a system where service 
providers have discretion to turn down a warrantless request 
when it appears the emergency is false, or when the requester 
does not appear to actually be a law enforcement official. 
Making disclosure mandatory can facilitate abuse by removing 
this important safety valve.
    Second, if the committee moves forward with a mandatory 
disclosure requirement it should add protections. Law 
enforcement should be required to obtain after-the-fact 
approval from a judge so that there is a neutral decision maker 
ensuring that the claimed emergency is genuine. In cases where 
police are found to have violated the law, there should be 
remedies including suppression of illegally obtained evidence 
and a civil remedy for those affected. And law enforcement 
should be required to provide notice to the person whose 
location information was obtained in order to allow that person 
to seek redress if police violated the law or to learn if 
someone may have impersonated an officer illegally to obtain 
sensitive information.
    These protections are modest. They are well established in 
other statutes including the Wiretap Act, the Pen Register 
statute, the USA Freedom Act, which governs certain requests 
for information in national security investigations, and state 
laws dealing with cell phone location records in places like 
Indiana, California, and Colorado. The version of the Kelsey 
Smith Act introduced in the last Congress also included some of 
these protections.
    Finally, the current bill allows emergency requests when 
law enforcement have a reasonable belief that there is an 
emergency. This standard should be raised to probable cause 
which is the standard that was used in the version of this 
legislation in the last Congress. A probable cause standard 
will help ensure that sensitive location records are obtained 
only when there is a good reason to believe an emergency 
exists.
    I look forward to answering any questions and to working 
with the committee to ensure access to location records in 
emergencies while simultaneously safeguarding Americans' 
privacy and preventing abuse. Thank you.
    [The statement of Mr. Wessler follows:]
    
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
     
    Mr. Walden. Mr. Wessler, we appreciate your input on this 
issue as well. We will now turn to Ms. Abigail Medina, trustee 
of the San Bernardino City Unified School District. Good 
morning, welcome, and we look forward to your comments.

                  STATEMENT OF ABIGAIL MEDINA

    Ms. Medina. Thank you. Good morning, Chairman Walden, 
Ranking Member Eshoo, and committee members. My name is Abigail 
Medina. I am a mother of five children, two of whom are in 
college; a wife of over 20 years; and currently vice president 
of the San Bernardino City Unified School District Board of 
Education. I am here to express the value of Lifeline to the 
many families it helps, especially in my community of the city 
of San Bernardino in which it has endured bankruptcy, poverty, 
and most recently the December 2nd mass killings.
    As a resident of San Bernardino, my family too struggles 
financially. When my husband was laid off, I worked in the 
fields Monday through Friday leaving my family behind in order 
to pay to help reconnect our electricity bill. Every penny 
counted. I remember searching through our furniture for the 
cent that would complete a dollar.
    My husband heard about Lifeline from a family friend who 
saw our struggles. You see, having affordable utility services 
helped us keep afloat, and while we worked to improve our 
situation having phone service also helped us when my husband 
would receive a call for a job. And also in emergencies, 
especially since we had children at home, we could make that 
call.
    These seem like little things and many people don't realize 
how important these services are until we have none. These days 
many need the internet to look for work. Children need to do 
research online for homework assignments. Many of our families 
are experiencing the widening technology in homework and access 
gaps. Sixty four percent of all Americans believe that 
expanding broadband access should be a national priority, and 
the FCC's recent Lifeline decision will help expand access in 
low-income communities.
    Lifeline internet services will allow many families to 
better their situation. In fact, research shows that the 
expanding internet access helps to grow the gross domestic 
product and personal incomes; that children would have a better 
and greater educational opportunity especially to do homework 
assigned on the internet that many but not all children today 
can complete; and that teens and others would have a greater 
opportunity to get health care advice online and save money on 
expenses.
    And I also want to mention that college students are also 
struggling, because if they, my children who are in college, if 
they have their internet disconnected or they are cut off they 
have no access to do their homework assignments, which many are 
online.
    So I ask you today to think of the many families, 
especially families in San Bernardino, the city of San 
Bernardino, and the many communities throughout the nation who 
need help to find a way to succeed. I stand before you to 
oppose capping the Lifeline program so that no eligible family 
is turned away from this important necessity. Thank you.
    [The statement of Ms. Medina follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Mr. Walden. We appreciate your input on the legislation. 
Thank you for being here. We will now go to Ms. Katie McAuliffe 
who is the federal affairs manager for Americans for Tax Reform 
and executive director of Digital Liberty. Welcome. We are glad 
you are here. Please proceed.

                  STATEMENT OF KATIE MCAULIFFE

    Ms. McAuliffe. Thank you. Chairman Walden, Ranking Member 
Eshoo, and members of the subcommittee, thank you for the 
opportunity to testify before you today on behalf of all 
taxpayers, or in this situation rate payers. My name is Katie 
McAuliffe, federal affairs manager at Americans for Tax Reform. 
Americans for Tax Reform advocates on behalf of taxpayers for a 
system in which taxes are simpler, flatter, and more visible 
and lower than they are today.
    I am happy to lend a voice of support for H.R. 4884, 
Controlling the Unchecked and Reckless Ballooning of Lifeline 
Act of 2016, also known as CURB Lifeline Act of 2016. This 
legislation provides the necessary safeguards to enhance 
methods for stopping waste, fraud and abuse while also ensuring 
those most in need of Lifeline receive support as intended. It 
also protects ratepayers from footing the bill on waste, fraud 
and abuse.
    Before delving into the CURB Act I wanted to congratulate 
you and all Congress on passing the Permanent Internet Tax 
Freedom Act. This is a great way to encourage internet access 
for consumers while also keeping costs low.
    The fees for the Universal Service under which Lifeline is 
a part will still be included as a line item on ratepayers' 
bills. However, Permanent Internet Tax Freedom does not stop 
fees from being assessed on bills, on voice and data service at 
this point. The fees of the Universal Fund will still be 
included as a line item on ratepayers' bills.
    Lifeline is part of the Universal Service Fund that has 
long been in need of reform. It was established in 1985 in the 
form of a fixed dollar subsidy to the carriers for eligible 
low-income subscribers for Americans to afford basic phone 
service. In 2012, spending hit an all-time high and the Federal 
Communications Commission moved to target rampant waste, fraud 
and abuse with a $400 million spending decrease between 2012 
and 2013 alone.
    The FCC has shown it is capable of controlling its budget. 
Spending in the Lifeline program is set to drop a total of $670 
million by the end of this year, with spending dropping from 
$2.2 billion to $1.5 billion. The FCC recently voted to expand 
the Lifeline subsidy to cover broadband as well as voice 
service. As we saw, when a new service is added spending goes 
up not necessarily because of need or increased availability, 
but more likely because of fraud and abuse.
    In its new order, the FCC reestablished the $9.25 subsidy 
to carriers to use for Lifeline eligible subscribers and set 
the quality standard for broadband at 3G with 500 megabytes of 
data for wireless and speeds of 1 up and 1 down. It creates a 
new verification process for the eligible applicants and sets a 
budget of 2.5 billion that can be reevaluated should spending 
hit 90 percent of the $2.5 billion fund.
    While I will agree that the expanding of the verification 
process the FCC will do a better job of targeting fraud and 
abuse unless the third party verifier incurs a waste on its 
own, the order does not do all it can. A powerful tool for 
controlling waste and fraud is to set a hard budget. While 
Americans for Tax Reforms would prefer there were no subsidies 
lashed to ratepayers that is not the option before us today.
    When faced with no budget or a $1.5 billion cap as proposed 
in H.R. 4884, Congress has the authority and responsibility to 
set a firm cap. All other programs under the Universal Service 
Fund do have budget caps. I would like to suggest that the $1.5 
billion cap is solid legislation on two points. 1.5 billion is 
an ample budget and the budget is necessary to control waste, 
fraud and abuse.
    So in closing, the affordability gap. All other preferences 
aside, Americans for Tax Reform strongly supports a budget cap 
on the Lifeline fund, especially in the current environment. 
The stated goal for including broadband as part of the subsidy 
is to bridge the digital divide and close the broadband 
affordability gap. While perhaps broadband may become more 
affordable for some, the order does not focus on those who need 
access the most, those who have no broadband access at all.
    In 2014, the NTIA found that 48 percent of non-adopting 
households cited lack of need or lack of interest as a reason 
for not subscribing to broadband at home. The Pew Charitable 
Trust found in 2015 that 70 percent of non-adopters were 
uninterested in subscribing to broadband in the future. Many 
smartphone-only users say that the reason they do not have 
broadband at home is because the smartphone lets them do all 
that they need to do online, underscoring the device's utility 
without a home high-speed subscription, and 59 percent say they 
have other options for internet access outside the home.
    Another survey conducted jointly by the FCC and Connected 
Nation found that 37 percent of non-subscribers were willing to 
adopt broadband at a reasonable price. The remaining 68 percent 
of non-subscribing households cited non-price associated 
reasons. Among the 37 percent willing households, price as an 
adoption factor was highest for those making below $15,000. It 
was about 50 percent. Upon reaching the $35,000 marker for a 
family of four, 32 percent cited cost as a primary factor as a 
non-subscriber.
    So cost can be interpreted in different ways depending on 
how a question is asked, but more so in terms of what else is 
available. I don't believe this hypothesis has been tested, but 
it is possible that those who cite cost as the primary reason 
for not subscribing may actually mean they don't see the point 
in spending that cost at home when broadband is so readily 
available elsewhere.
    In America we are fortunate that broadband availability via 
wireline or wireless covers 99 percent of the population with 
an 88 percent in-home adoption rate. We used to go to internet 
cafes and pay by the minute to get online. Then there were 
hotspots or private wireless networks, then there was usually a 
cost. Now access is freely available everywhere. If not a local 
coffee shop, restaurant, or McDonald's, there is access in 
public libraries and schools. This leads us to a position where 
monetary cost has significantly decreased as the prominent 
deterrent for having access at home for non-subscribers. Even 
as early as 2013, consumers demonstrated the cost factor was 
decreasing as a barrier to connecting the unconnected. In 2013, 
the FCC's 14 experimental broadband Lifeline offerings, 
wireline and wireless broadband providers signed up less than 
10 percent of the predicted number of new subscribers.
    This, the only real world experiment with Lifeline applied 
to broadband, showed it is exceedingly difficult to encourage 
the disconnected to subscribe via discounts. To participate in 
the pilots, subscribers had to certify they met income 
requirements and had not had a broadband subscription for at 
least 6 months. For one carrier, just over half of the 
applicants were rejected because they had broadband sometime 
within the previous 6 months.
    If the goal is connecting the disconnected to reduce the 
digital divide, then the subsidies applied to broadband were 
not as effective as expected and shown in this experiment. From 
this data it is likely that subsidies given based on income 
criteria will mostly go to those who already subscribe to 
broadband rather than connecting the disconnected. In his 
paper, Learning from the FCC's Lifeline Broadband Pilot 
Projects, Scott Wallstein concluded if this is the case, then 
the Universal Service Fund becomes an inefficient general 
welfare fund rather than a mechanism that encourages 
connectivity.
    In controlling waste, fraud and abuse--the Lifeline program 
has a long history of abuse. Congress should use its oversight 
to rein in spending that encourages abuse on the backs of 
ratepayers. A budget of $2.25 billion that can be reevaluated 
when 90 percent of the fund has already been spent does not 
adequately provide the proper incentives to stop abuse. The 
Federal Communications Commission has taken measures to stop 
rampant abuse in the program.
    The Lifeline annual recertification process established in 
the 2012 Lifeline Reform Order to verify that a subsidy 
recipient did meet the Lifeline requirements, and households 
were not receiving multiple subsidies significantly cut 
spending in the program. As a result, 29 percent of all 2012 
Lifeline subscribers were de-enrolled, and between 2012 and 
2013, waste, fraud, and abuse of the program was cut by nearly 
$400 million. As a whole, since 2012 abuse has been cut by 
nearly 670 million, and spending of the fund reduced from $2.2 
billion to about 1.5 billion.
    As broadband is included, the National Eligibility Verifier 
adds another layer of abuse protection, though I cannot 
speculate as to whether this entity will incur more government 
waste. Another reason a budget cap is important is not only to 
curb carrier abuse, but also to prevent government waste of 
dollars that should be directed towards helping those in need.
    This shows promise, and the Commission under Congress' 
direction should not stop there. While there are penalties both 
monetary and otherwise, they serve as only a mild deterrent. 
Importantly, the ones actually defrauded, the ratepayers, do 
not receive restitution. Setting an actual budget that must be 
adhered to is key to protecting ratepayers, while still 
providing support to those in need of access.
    Mr. Walden. Ms. McAuliffe?
    Ms. McAuliffe. Yes.
    Mr. Walden. Are you about finished? I have let you go an 
extra 5 minutes.
    Ms. McAuliffe. Oh, I am about done.
    Ms. Eshoo. About 10 minutes, she has ----
    Mr. Walden. Yes, it is supposed to be 5 minutes.
    Ms. McAuliffe. Oh, then I will just stop right there. Yes, 
we will stop there.
    [The statement of Ms. McAuliffe follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
    Mr. Walden. OK. Thank you very much. Yes, I gave everybody 
a little flexibility today, but we were doubling down, so no 
problem.
    I am going to start with the questions. And Ms. Smith, Mr. 
Wessler had some comments from the ACLU about potential abuse 
and all, and I would like to get your take and Mr. Souder's 
take on that. What do you think? What have you seen in states? 
I was going to inquire in my own state of Oregon if they have 
seen any abuse. And aren't there other statutes that would 
govern a fraudulent claim of emergency when none existed?
    Ms. Smith. Thank you, Mr. Chairman. I have not heard of any 
reports. I did read his examples. But if a law enforcement 
officer is going to commit a fraudulent claim, I do believe we 
have laws that already address that and they could be 
prosecuted. My husband was a police officer for almost 20 years 
and was a police officer when Kelsey went missing. And does it 
happen? Sure, but the same can be said about cell phone 
providers not releasing that information.
    Mr. Walden. Mr. Souder, what is your experience in this 
realm?
    Mr. Souder. Thank you for the question. Personally, and the 
folks that I work with around the National Capital Region where 
we all live, we do not see any abuse of that at all. It is used 
very judiciously, and only where it is absolutely incredibly 
important that it be used. And there are ample, ample 
situations where by it being used for the right reason at the 
right time, many lives have been saved or have been saved from 
being more injured than they had already been.
    Mr. Walden. Mr. Wessler, I have a question for you. On the 
Oregon statute it says it passed unanimously, the House the 
Senate, and signed by a Democratic governor. What was ACLU's 
position on that?
    Mr. Wessler. I am sorry, Congressman. I don't know that. 
Each of our state affiliates handles state legislation 
separately. I work for our national office.
    Mr. Walden. Could you find out for me?
    Mr. Wessler. I can.
    Mr. Walden. I am not an attorney. I know better though than 
to ask a question I don't know the answer to.
    Mr. Wessler. Absolutely. And Congressman, if I can just say 
quickly that----
    Mr. Walden. Sure.
    Mr. Wessler [continuing]. There have been a variety of 
protections put into place in different versions of the Kelsey 
Smith Act enacted by states around the country. In states like 
Indiana and Colorado, for example, there are requirements for 
after-the-fact judicial review, probable cause requirements. In 
California, a comprehensive cell phone privacy act had similar 
protections.
    Mr. Walden. So Mr. Souder, can you speak to the after-the-
fact judicial review and what that effect would have on a 911 
dispatcher or your system?
    Mr. Souder. As someone mentioned earlier, you may only call 
911 once in your life, but it is the most important phone call 
you may make.
    Mr. Walden. That was one of the Democrat members of the 
FCC.
    Mr. Souder. I think that is the foundation from which we 
really look at the whole industry of 911 and the delivery of 
service. Providing help to those that need it in the quickest, 
most efficient way is absolutely the most important thing. I 
can't imagine how awkward our job would be if restrictions were 
placed on it greater than those that are on it already. It 
would clearly distract from the entire intent of 911.
    Mr. Walden. OK. Ms. Smith, anything you want to finish up 
with?
    Ms. Smith. I just wanted to say we have protocols in that 
in place that the police would have to verify that they are the 
police. And it is not like a police officer can just call up 
and say to Verizon, hey, give me this information. There are 
steps that have to be taken and there are protocols. And I just 
find it somewhat amusing that the ACLU has said we don't want 
this mandated, but yet in his testimony there are several 
mandates that he would like put in place. You can't really have 
it both ways.
    Mr. Walden. All right. In the essence of time I am going to 
end my questioning and now recognize the gentlelady from 
California, Ms. Eshoo, for questions.
    Ms. Eshoo. Thank you, Mr. Chairman, and to each one of the 
witnesses, thank you for your testimony. Moving, instructive, 
helpful, and--well, that is a lot because that is what a 
hearing is for.
    Mr. Souder, thank you for your wonderful work. It has been 
part of the joy of my public service to have become involved 
with all of the first responders across our country, so thank 
you for what you have done to advance that collective work.
    I think that we all agree with it, when you dial 911 from a 
hotel, an office, anywhere that you shouldn't have to have some 
kind of prefix. I mean, I never taught my children any prefix. 
It was just what did Mommy tell you? Tell me the number again, 
say it again, from their earliest consciousness. And we all 
embrace this.
    Now location accuracy for our systems is very, very 
important because once you reach a 911 call center the people 
answering the phones have to know where you are to dispatch 
first responders. I think it is the other bookend. No prefix 
and location. And I think that if one is missing, then the 
other really has an overall effect on the emergency.
    And the reason why I ask this is because Kari's Law is 
very, obviously very important. It is born out of tragedy which 
is instructive to us, but I am concerned that it doesn't have 
any, it doesn't speak to location technology. Do you have the 
same unsettled sensibility as I do on this?
    Mr. Souder. Ms. Smith, would you like to say anything, 
because I would like to follow on you, if you don't mind.
    Mr. Hunt. The reason it is not included in Kari's Law is 
because of the expense. In order to have a dispatchable phone 
number you have to have one for every phone in every building 
that will tell you the room number, the floor number and as 
such, whereas those phone numbers aren't bought, they are 
leased. They are a monthly recurring charge per phone. This is 
a cost that is unnecessary with onsite notification.
    Ms. Eshoo. Well, let me ask you, do you think the cost 
matches the urgency of the tragedies that you are living 
through and others are living through? I mean, where do you cut 
off cost? Do you think some people, there is a cost attached so 
sorry about you, but--I just think it is part of the emergency 
system.
    Mr. Hunt. When a building has 5,000 phones in it and each 
one has to pay an extra two dollars per phone a month that can 
put a company under. Onsite notification, had my daughter 
experienced onsite notification, someone from that hotel would 
have known that call was made and had gone to that room, we 
would hope. Therefore--this gentleman told the courts that it 
took him 5 minutes to kill my daughter.
    Ms. Eshoo. Let me get back to--if I might, I only have five 
minutes not ten. I want to get back to Mr. Souder. Does it 
concern you that Kari's Law requires that these problems be 
fixed on only new phone systems purchased two years after 
enactment?
    Mr. Souder. Very personally, I want to be sure that we are 
looking at this in the context of the provisions of the Kari 
proposed law as well as the broader implications of location 
technology when it----
    Ms. Eshoo. What is your opinion of it? I am just asking.
    Mr. Souder. My opinion very definitely is that Kari's Law 
is very well written, but it has to be tied with the location 
that the call is coming from, yes.
    Ms. Eshoo. Thank you. Thank you. It is an important thing 
to get on the record.
    Ms. McAuliffe, did you write your own testimony? It seemed 
like you weren't sure about what you were reading.
    Ms. McAuliffe. Oh, no. I wrote my own testimony.
    Ms. Eshoo. You wrote it, OK. Do you think that the budget 
cap can lead to more wasteful spending in the program? And this 
is the issue that I want to raise. If those that are eligible 
for the service but don't need it, then decide to apply for the 
subsidy out of fear that the service is going to run out of 
money, what kind of an effect do you think that is going to 
have?
    Ms. McAuliffe. So are you referencing something kind of 
similar to when----
    Ms. Eshoo. No, it is just a straightforward question. I 
mean, if you can't answer it I will go to someone else because 
I don't have----
    Ms. McAuliffe. No, I don't think that would be an issue.
    Ms. Eshoo. Why? Based on what?
    Ms. McAuliffe. I don't think it would be an issue that a 
bunch of people would rush out and try to get the subsidy 
because it was capped.
    Ms. Eshoo. And that is a sensibility of yours? I mean, 
have----
    Ms. McAuliffe. Yes.
    Ms. Eshoo [continuing]. You done any research on it?
    Ms. McAuliffe. No, I have not.
    Ms. Eshoo. Thank you.
    Mr. Walden. The chair now recognizes the vice chair of the 
subcommittee, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you, Mr. Chairman. And thank you 
very much again to our witnesses, especially the family members 
for providing your testimony today because I know how difficult 
it is for you to have to give it to us today. But it is very 
important that we hear your stories so those stories aren't 
repeated by other families across our country.
    And also, Mr. Souder, I would like to thank you for what 
you did a little bit earlier before you came into our hearing 
room about making 911 calls from here, because I have heard 
that problem before that it is not very easily, especially in a 
building this size, to find out where someone is. And I 
appreciate that.
    But Mr. Hunt, if I could just maybe ask you a question in 
regards to encouraging the fact especially from the MLTS 
vendors is that every single one of their phones can be 
configured to allow for that dialing of that 911. And moreover, 
the reprogramming system for the phones not set up for direct 
dialing from the factory is relatively easy and inexpensive. In 
other words, there is no technical reason why every phone in 
the U.S. cannot be set up to allow for that direct 911 dialing.
    Despite this, and again as we have heard in the testimony 
today, there are thousands of hotels, schools, and office 
buildings across the country that do not have that direct dial 
program into their MLTS systems. What else could we doing out 
there besides when we are looking at the law or the bill before 
us to incentivize institutions to adopt that direct 911 
dialing?
    Mr. Hunt. Well, I think that the biggest fear that some 
companies have right now is liability. In some cases they can 
be held liable for not providing a proper atmosphere. People as 
we have said earlier, 911 is ingrained in our children and even 
in adults, and that is an expected result that you should get 
by dialing those numbers. When a phone prevents you from doing 
that you have no idea which direction to take it in, and 
therefore you have immediate danger to life.
    At this point right now most companies will do it on their 
own. We have been having very good luck with the hotels and 
motels that are doing that as I said earlier and----
    Mr. Latta. Could I interrupt for one second? Now how did 
you reach out to different hotels and maybe the other providers 
out there?
    Mr. Hunt. We had the backing of the American Hotel and 
Lodging Association. And once Commissioner Pai released his 
questionnaire to the top ten CEOs of the hotel corporations, 
word spread quite a bit. The industry itself seems to be taking 
a proactive role in it, but that is hotels and motels. We are 
talking about colleges, schools, office buildings. And in 
reference to being able to locate a person you can have all the 
information in the world, but if that firefighter doesn't know 
where that room is it does them no good. When we got here 
today, even though we had a map on the wall and the room number 
we had no idea. We had to ask someone. Someone pointed it out 
and it ended up being fairly easy to find.
    But the numbers in some cases, numbers that are in between 
two others are in this direction and then the opposite numbers 
are this way and they should be next to each other, in my 
brain. But it was difficult to find without asking someone. And 
onsite notification, in our opinion, is a solution to that.
    If you don't have onsite notification and the room is 
locked what are they going to do, break the door down? If it is 
a dire situation then I can understand that. But if it is even 
a misdial you can have someone come and unlock the door for 
you, unlock the front door if it is after hours. They can get 
you there, but once the firefighters or police officers are in 
but gets to that location they need someone to direct them 
quickly without having to go through a map or a directory. 
Cubicle 2C3F could be an exact location, but that would 
probably mean nothing to a firefighter who is trying to get to 
someone who is injured.
    Mr. Latta. Thank you very much, Mr. Chair. I see my time is 
about to expire. I yield back.
    Mr. Walden. The gentleman yields back. Before I recognize 
Mr. Yarmuth, I think, next, I have a letter I would like to 
enter into the record, with unanimous consent, from 
Commissioners Mike O'Rielly and Ajit Pai, which I think we 
already have seen. Without objection.
    Now I would like to recognize the gentleman from Kentucky, 
Mr. Yarmuth, for questions.
    Mr. Yarmuth. Thank you very much, Mr. Chairman. I want to 
thank all the witnesses, particularly Mr. Hunt and Ms. Smith. 
Thank you for your courage in coming here today. I join my 
colleagues in expressing my sorrow for your loss, and thank you 
for your dedication to improving this situation and heading off 
any potential incident like occurred to you.
    I am going to spend most of my time talking about Lifeline 
because I am very concerned about any legislation that would 
reduce access to what in my district and I know many districts 
across the country are very critical. My district is urban. It 
is Louisville, Kentucky. We don't qualify for the high cost 
fund or the rural health care fund under USF.
    Our schools and libraries use the E-rate providing access 
to the internet, but once those facilities close there is 
nowhere for most kids to go to complete their homework 
assignments or to just connect to the world as we know is as 
valuable part of education these days as what you find in 
school.
    The Kentucky Department of Education Technology Readiness 
Report indicates that more than one in four households with 
children in my district lack internet access. And I was at a 
school a couple years ago, a middle school, and asked the 
principal that because 95 percent of the kids were on free and 
reduced lunch. And I asked her, what would you estimate the 
percentage of your kids who have access to the internet at 
home? She said 10 percent. I said, well, that 90 percent, those 
kids are done. I mean, they are lost. And the thing about that 
particular situation is most of the kids at that school were 
bussed miles and miles away, some as many as eight or nine 
miles.
    So just, and I am going to get to a question for Ms. 
McAuliffe, because this notion that there are other places for 
students to go or families to go including McDonald's seems a 
little bit cavalier to me. I mean, how many blocks would you 
say it would be OK to have a second or third grader walk to get 
their homework done so they could find a McDonald's or in case 
a library was open? And are the parents going to take them and 
are the McDonald's going to welcome them and, because they are 
not going to be able to afford to buy anything there.
    It just seems to me such a cold-hearted approach to saying 
that these kids, I mean, and I see these kids in our schools 
every day and I know that there are no alternatives for them 
that are reasonable. You take a 9 or 10-year-old kid and say, 
oh, the McDonald's is ten blocks away. Go walk there at 8 
o'clock at night and get your homework done. Do you think that 
is really a reasonable alternative for people in this country, 
for kids in this country?
    Ms. McAuliffe. Well, what I was referring to is the people 
who are completely unconnected, and the people who have decided 
they will never connect ever. So for people like that, yes, 
they probably do go to public places. They have someplace else 
to access. But for people who have completely no access, I 
think that is what the program should be targeted to.
    So that 90 percent of students that you were talking about 
who don't have access at home, Lifeline should be targeted 
directly towards them and to those low-income families rather 
than serving as a subsidy for people who are already 
subscribing.
    Mr. Yarmuth. Well, you threw a lot of numbers out in your 
testimony. I didn't quite get that point from listening to your 
testimony. I am concerned also about this notion that--and I 
think all of us agree that we ought to do everything we can to 
end fraud, waste, and abuse in any government program. It is 
absolutely essential. And I think we, as Democrats, I wrote an 
op-ed piece about this last week. We as Democrats ought to be 
the most aggressive in that because we want to prove the 
government can work and it can be effective, so we ought to be 
the ones who talk about that all the time.
    But I do have just a theoretical question about why a cap 
is something that promotes a reduction in fraud and abuse. 
Logically, there doesn't seem to be any connection. I can see 
from the agency's standpoint if you cut their funds they are 
going to probably be more efficient so maybe there is not as 
much waste. But the fraud and the abuse in this system, do you 
have any evidence that cutting a budget actually reduces fraud 
and abuse?
    Ms. McAuliffe. Cutting the budget has more incentives for 
pursuing that. And I think combined with the National 
Eligibility Verifier that those two working in concert is a 
great incentive to keep everything targeted to the people who 
need it most.
    Mr. Yarmuth. Well, the verifier is going to be in place 
so----
    Ms. McAuliffe. Right.
    Mr. Yarmuth [continuing]. We don't have to legislate that. 
But are there any, do you have any evidence that cutting a 
budget has reduced fraud and abuse in any particular program?
    Ms. McAuliffe. I would say abuse.
    Mr. Yarmuth. OK. Well, if you could submit any evidence you 
have I would like to see that.
    Ms. McAuliffe. Right.
    Mr. Yarmuth. Thanks very much. My time is up, Mr. Chairman. 
I thank you.
    Mr. Walden. I thank the gentleman for his questions. We 
will now go to the gentleman from Kansas, Mr. Pompeo, for 5 
minutes.
    Mr. Pompeo. Thank you, Mr. Chairman. And thank you to all 
the witnesses today. Ms. Smith, thank you especially to you for 
coming today to talk about your daughter and all the work you 
have done that has been absolutely tireless. And so we heard 
some concerns expressed by one of the folks who gave testimony 
this morning about the possible abuses of this law. You talked 
about it being in 22 states. Can you tell me, how would you 
respond to the concerns about privacy that were raised today?
    Ms. Smith. Only at the level when I testified would there 
be an ACLU member trying to oppose the legislation. That is the 
only time we have heard about privacy issues. You won't hear it 
from a parent of someone that is missing.
    Mr. Pompeo. I also haven't heard it from law enforcement. I 
have talked to law enforcement throughout the state as I travel 
around. We have had it in Kansas now for a good long period of 
time. I haven't heard them, I haven't heard the senior officers 
expressing any concerns about their officers abusing the power 
and the process they have. Are you aware of any of that?
    Ms. Smith. I am not.
    Mr. Pompeo. Ms. Smith, some of the state versions have a 
limited liability exception for carriers providing some 
protection to them. Are you comfortable with that provision as 
some of the states have it if we put that in the federal 
version?
    Ms. Smith. I believe most of the states have it. Previous 
federal versions have that also.
    Mr. Pompeo. Right. Mr. Wessler, thank you, Ms. Smith. Mr. 
Wessler, you identified in your written testimony, I think in 
your oral testimony as well maybe it was just three, but in the 
written testimony four examples. We now have 22 states that 
have had this on the books for cumulatively dozens and dozens 
of years. Are those the four examples that you think provide 
the case for arguing against allowing cell phones geolocation 
data be made available in emergency situations?
    Mr. Wessler. Thank you, Congressman. Those are examples 
that appear in case law specifically, where judges have 
actually had an opportunity to review police's conduct and 
point to that. We also point to some systemic examples 
including a 2010 report by the Department of Justice Inspector 
General showing systemic violation of emergency request 
procedures by the Federal Bureau of Investigation for telephone 
records.
    Mr. Pompeo. Right. That is not exactly what--I have read 
that. That is not exactly what it says. Two of the four 
examples, just so the record's right, two of the four 
examples--I have now read the court cases--looked like they 
were plain old mistakes, which I will concede law enforcement 
makes from time to time just like I do. So it seems to me that 
the case for protecting human life and finding people who are 
in dire need of assistance from law enforcement far outweighs 
what now is, by my count, one example of case law that shows 
some form of a potential abuse of practice over the course of 
years and years and years.
    Mr. Wessler. And Congressman, I think that point is 
actually to the importance of one of the very modest 
protections we ask for which is notice to the person whose 
location is obtained after the fact. Not before, obviously not 
to interfere with the investigation, but notice is included in 
federal statutes like in the Wiretap Act and in state statutes 
and is really key mechanism so that people can know if it was 
an inappropriate request. If somebody is tracked down who was 
truly in danger then they will have no complaint, and we want 
law enforcement to have that access. But notice, after-the-fact 
judicial review, and remedies can coexist with emergency 
access.
    Mr. Pompeo. Great, thank you. Mr. Chairman, I yield back 
what little time I have left. Thank you.
    Mr. Walden. Thank you very much. The gentleman yields back, 
and the chair recognizes for 5 minutes the gentleman from 
Pennsylvania.
    Mr. Doyle. Thank you, Mr. Chairman. And I want to thank the 
witnesses, and particularly Mr. Hunt and Ms. Smith. Thank you 
so much for being here and participating. Your loss is a 
reminder to all of us that we need to make sure that our public 
safety laws are updated and modernized to account for changing 
technologies and which is one of things we on the committee 
take very seriously.
    In the last session of Congress in this committee we passed 
a modified version of Kelsey's Law by voice vote, I believe. I 
think it passed unanimously, which provided some of the 
provisions that Mr. Wessler was talking about. I know as a 
parent, I have four children, I would want that call and 
information to happen immediately. I think that is important.
    I don't, quite frankly, see a problem with after-the-fact 
review. I think that creates a disincentive whether it be law 
enforcement or anyone else from misstating who they are or what 
they are. I think the most important thing is when something 
like this happens, locate that person immediately. Nothing 
should stop that.
    But I wonder, Mr. Souder, if the action occurs immediately 
so that we hopefully save a life or get law enforcement to that 
situation as quick as possible, what harm do you see with 
after-the-fact, having some sort of review to make sure that 
the emergency was really an emergency and that the individual 
whose information or location was given out is notified that 
that was done? And obviously if that is someone who was missing 
and located, they are not going to have a problem with that. 
But if it was used for some other nefarious purpose that they 
would know this and have some redress. Do you see a problem 
with that?
    Mr. Souder. I do not. And internally, meaning within the 
911 center and the law enforcement agencies that we work very 
closely with, we have a multitude of safeguards to ensure that 
when a request is received there is legitimacy to it, when 
information is provided it is provided in a secure manner, so 
all of those things internally are already in place. But you 
are talking after the fact.
    Mr. Doyle. Yes.
    Mr. Souder. I don't see any problem with it. I would only 
ask that the 911 center not be tasked with doing that.
    Mr. Doyle. Yes. No, I understand what you are saying. I 
mean, I think there is a solution to this. We want to do this 
and we want to see it happen. And I think that as long as we 
are not impeding the immediate location, information to where 
that location is because that should be paramount before any of 
this other, but that after the fact, to make sure that we have 
some safeguards in place that would be a disincentive for 
anyone to fraudulently say I have an emergency here when it 
isn't because there is going to be some after the fact review 
of it, seems to me to be a reasonable solution to a problem 
which doesn't imperil the families or the victims, and at the 
same time provides some safeguards against any--and I am sure 
that these instances are rare anyway, but the fact that if 
there is documentation that they have existed in some 
instances, this seems to be the reasonable compromise between 
the two.
    Mr. Hunt, I have got to tell you, I think most people don't 
even give it a thought that there is prefixes before 911. I was 
just sitting here thinking, I think all of us just thought, 
boy, you just grab any phone and dial 911 and you are getting 
connected. And when you think about it, I mean, even on our 
phones in the Capitol, if you are going to an outside line you 
have to hit that 9 first before you dial.
    And it just seems to me in this age of technology this 
should be a simple fix and that no matter which phone you touch 
when you hit 911, because you are right, as parents that is 
what we tell our kids from the very beginning. That is the one 
number we drill into their heads that when something like this 
happens that is what we do.
    So I really hope we can address both of these problems, and 
I think they go hand in hand by the way that this should be 
done. And I certainly, Mr. Chairman, are looking forward to 
working with you and members of this committee to find a 
solution to this very serious problem that--and I think it is 
within our ability to get this done and hopefully passed into 
law.
    And so I thank both of you for coming, and Mr. Souder, I 
thank you too for the great work you guys are doing. And your 
reputation and the work of your agency in Fairfax is well known 
and we certainly appreciate it. And Mr. Wessler, I think some 
of the things you mentioned especially the after-the-fact stuff 
just to me makes sense. That is a safeguard we can--and still 
make sure these families, when there is a victim.
    I have to tell you with regards to the Lifeline program, I 
know the Americans for whatever, Americans for Tax Reform, is 
that your group? I know you claim to speak for taxpayers. I 
guess you speak for some; you certainly don't speak for all. To 
cap this program to especially to take away poor people's 
ability to call 911, because this bill you speak of has a two-
year phase-out of voice-only services and I just wonder what 
happens to the people on this program in two years when we 
phase out voice-only to this. They are going to have buy--I 
know this isn't favored by the industry. It is not favored by 
consumer groups. It is not favored by anybody I am aware of 
except maybe your organization.
    And I would say to you too, when you talk about the waste 
and fraud in this program, people immediately think, yes, that 
is just poor people defrauding the program. The fraud is coming 
from the phone companies that are trying to sell these 
products, trying to sell two and three and four phones to 
people and saying it is OK, it is within the rules. I mean, 
most of the fraud we have seen in this Lifeline program isn't 
coming from the poor, it is coming from telephone solicitors 
that are trying to make a commission selling these products.
    So I think it is a terrible idea to cap the program. The 
FCC is working on a reform package. The phase-out is five years 
instead of two. It seems eminently reasonable to me, and I hope 
this committee will not pursue this legislation 4884. I think 
it is counterproductive. And Mr. Chairman, thank you for your 
indulgence.
    Mr. Walden. Thank you very much. The gentleman yields back 
and the chair now recognizes the gentleman from Florida for 
five minutes.
    Mr. Bilirakis. Thank you very much, Mr. Chairman. I thank 
the entire panel, particularly Mr. Hunt and Ms. Smith, for your 
testimony today. I am going to start off with the Lifeline.
    Ms. McAuliffe, since Florida is a net payer into the--and I 
represent Florida as the chairman said. Since Florida is a net 
payer into the Universal Service Fund it only underscores the 
importance that cutting down on fraud and waste, abuse again 
within the system, is imperative. We and the FCC must continue 
to improve and adapt the program to modernize reality so that 
only eligible customers receive Lifeline credits.
    Can you describe the effect that an uncapped budget as 
currently constructed affects payer states like Florida, and 
how would a firm budget at any level around a million and a 
half or two billion dollars better protect against waste and 
unbalanced Lifeline disbursement?
    Ms. McAuliffe. Sure. So in terms of a firm budget it kind 
of keeps things more in line because Florida is what, 300, over 
300 million payee or into Lifeline, and that is money that 
could come back to Florida to help Florida residents who need 
that. So in having a budget to kind of quell this waste, fraud 
and abuse will make sure that the money stays more towards 
where it goes. And kind of in reference to the mobile-only, all 
I am testifying here is about having a firm budget and that 
that is very important to have that cap.
    Mr. Bilirakis. Very good, thank you, next question. It is 
apparent for you, again Ms. McAuliffe. It is apparent that the 
rampant fraud and abuse within the Lifeline program five years 
ago has been addressed to some extent. Do you agree with that?
    Ms. McAuliffe. Yes.
    Mr. Bilirakis. I do note that since 2012 abuse has been cut 
by nearly $670 million. That is significant. And yet we see 
instances just last week where a company can bypass federal 
safeguards to enroll 99.8 percent of their subscribers using 
stolen identifications or even the lack of identification for 
eligibility. The ratepayers are the ones that truly suffer in 
my opinion.
    What is the best way for us to add teeth to these 
eligibility requirements so it can act as an actual deterrent? 
Can we completely cut some companies out of the program at a 
certain level for noncompliance? Can we cut them out?
    Ms. McAuliffe. There should be and I believe there are, 
there are deterrents and abilities to cut companies' 
participation if they are acting in an abusive way. And I think 
the National Eligibility Verifier will go, will definitely help 
with that since it won't be the carriers self-certifying, it 
will be a third-party agency certifying that the people there 
submitting are a part of it.
    And I think the level that you have, 135 percent of the 
poverty line, which is about $32,000 for a family of four, I 
think that won't be an issue with the $1.5 billion budget cut 
because that is about where we are right now. So anyone who is 
currently participating in Lifeline will still be able to 
continue participating.
    Mr. Bilirakis. And that is so very important obviously.
    Ms. McAuliffe. Yes.
    Mr. Bilirakis. Mr. Hunt, your testimony today to the 
committee is truly admirable and we appreciate it so much. I 
cannot imagine how your loss must affect you every minute of 
the day, but your perseverance and determination with Kari's 
Law is remarkable. Thank you so very much, sir. It is common 
sense legislation as far as I am concerned. We have got to get 
this done.
    Mr. Hunt. Thank you.
    Mr. Bilirakis. Shifting to Director Souder, thank you for 
being here as well. In your experience, where do these multi-
line telephone systems present the biggest challenges to their 
users? Would the notification system that alerts a central site 
to the exact location of the emergency as required under Kari's 
law cut down on response times in nursing homes and other elder 
facilities, and also what about schools?
    Mr. Souder. Schools would be included in that group of 
multi-telephone line subscribers as well. We are very fortunate 
in our region that there is a large level of compliance, but 
this is a very large nation and there are many hotels 
throughout the states, and I cannot speak to how many of them 
are voluntarily being compliant. But clearly I would hope that 
if this law is passed it will be a significant incentive so 
that this problem that does exist in many places will be 
rapidly addressed and not waiting until the incumbent telephone 
equipment has lived its life cycle which could then even be 
many years away.
    Mr. Bilirakis. Again thank you, sir, for your advocacy.
    Mr. Bilirakis. All right. Mr. Chairman, can I ask one 
question of Ms. Smith? Well, if we don't have time----
    Mr. Collins [presiding]. No, not a problem.
    Mr. Bilirakis. OK, thank you. Ms. Smith, your testimony 
today obviously is equally heartbreaking. Your loss is 
unconscionable. In today's modern age of telecommunication 
anything short of immediate, again short of immediate, in my 
opinion, is frustrating. It should be immediate.
    I commend you for working so diligently for so long across 
our entire country in pursuit of this change. As you note, this 
law is already saving numerous lives that might otherwise be 
lost. That in and of itself is extraordinary, so thank you so 
very much. Can you elaborate a bit who this law, as enacted by 
almost half of the country, I think 22 states, is benefiting 
the most? Who is it benefiting the most? How could this affect 
residents in my state of Florida? And I understand we do not 
have a law on the books.
    Ms. Smith. Thank you, Congressman. Unfortunately your state 
has not passed it yet. Who does it benefit the most? The lives 
that have been saved. I testified to an elderly gentleman who 
had had a stroke and could not talk, but he could dial his 
wife's phone. He was recovered. There was a suicide attempt. 
The young lady had left a note and she was tracked and found in 
time. There was a baby, and this made news last year in our 
area, who was carjacked. Her parents' car was carjacked and 
that baby was found in less than 40 minutes and the police 
stated it was absolutely because of Kelsey's Law. Those are the 
people that benefit.
    And an additional benefit, I believe the very first time 
Kelsey's Law was ever used in Kansas there was a young lady 
murdered and she was taken to another state. But she came home, 
and her father does not believe she would have come home, she 
wouldn't have been found had it not been for Kelsey's Law. 
Those are the people that benefit from this law.
    Mr. Bilirakis. Thank you so very much. I appreciate it. I 
yield back, Mr. Chairman.
    Mr. Collins. Thank you. The chair now recognizes the 
gentleman from California.
    Mr. McNerney. I thank the chair. Mr. Souder, we have three 
public safety bills on our first panel. Although two of these 
bills seek to strengthen public safety, I am worried that one 
may undermine public safety for millions of low-income 
Americans. This would be the CURB Lifeline Act which makes so 
that low-income families may not have access to cell phones. In 
your experience, how important is it for low-income Americans 
to be able to use their mobile devices for 911 emergencies?
    Mr. Souder. No different than it is for you or I.
    Mr. McNerney. How would cutting off 911 services for low-
income Americans impact public safety?
    Mr. Souder. We would have unfortunately less calls to 
respond to, although it wouldn't impact at all the need.
    Mr. McNerney. Thank you. Pretty blunt answers there.
    Ms. Medina, thank you for testifying. What impact would a 
rigid funding cap on Lifeline have on current and future 
subscribers?
    Ms. Medina. Well, I live in San Bernardino, the city of San 
Bernardino where there is a high population of poverty, and not 
only that crime. It would impact significantly because many 
families can't afford, and currently right now we have a 
limited amount of internet access.
    And when you look at, when they were mentioning earlier 
regarding McDonald's and other places, when you have safety 
issues in your community you can't easily just walk to the 
neighborhood McDonald's or other locations. And we have had 
recently, unfortunately, two youths, one 14 and one 12, die 
while walking to a gasoline station which is around the corner.
    So we have incidents in many communities throughout the 
nation that you can't have, it is not easy to have access 
especially after school and walking to different locations. So 
it definitely makes a huge impact on our communities.
    Mr. Wessler. Congressman, if I could just add to that. A 
hard cap also doesn't take into account the potential for 
economic crises and downturns or natural disasters. It sets the 
cap at a limit they may make sense this second, but economic 
circumstances of families can change very fast and this could 
leave people in really dire straits.
    Ms. Medina. And I do want to mention when you look at caps 
it sets limitations on how many families you can serve, and 
that is the bottom line. You could have either a hundred 
families that could receive the service, but when you have a 
cap and you can no longer service them then what happens to 
them?
    Mr. McNerney. OK, thank you. As part of the CURB Lifeline 
Act, support for standalone mobile voice service would be cut 
off for many families. Standalone mobile service has become a 
simple focus of the program while a majority of the program's 
participants connect over mobile phones. Can you explain why 
being able to make voice calls using mobile phones would make 
the most sense for low-income Americans?
    Ms. Medina. Emergency, I mean it has to do with 
emergencies. When I have my five children, if I am not home and 
they have to access, my teenagers have to access to call me 
they have that access to call. And also with finding work, my 
husband was laid off at one point and how do you find work? And 
you have to receive a call when you apply, and as well as 
internet access as well when you do the applications.
    Mr. McNerney. OK, thank you. Well, I think we all want to 
make sure that low-income families have access to emergency 
services.
    Ms. McAuliffe, in your testimony you stated that broadband 
internet access is freely available nearly everywhere. You 
mentioned restaurants, McDonald's, but many low-income 
Americans have multiple jobs, a lot of these establishments are 
closed when they have any kind of free time. How can these 
Americans still access the internet to do essential things like 
help their kids with homework and apply for better jobs?
    Ms. McAuliffe. Sure. And that is true that those time 
frames are difficult. And one of the things about the new order 
is that it does bring in broadband access and a lot of people 
are choosing to access on mobile devices. So that also links in 
the cost of voice service has gone down so much, so when you 
bundle both the voice and the data service together--right now 
we are at the 1.5 billion--it wouldn't cut anyone out, but it 
would actually add a service so you would end up with voice and 
an internet connection rather than neither.
    Mr. McNerney. Well, I don't think that is realistic because 
the subsidy is $9.25 a month, which doesn't really even pay for 
mobile service much less mobile plus bundled services, so I 
would be careful about what that means. Thank you, Mr. 
Chairman.
    Mr. Collins. I want to thank you for your questions and 
thank the panel for your testimony today. That has been very 
useful. And we have a second panel coming up, so with that 
thank you for your time and you are dismissed. We will call the 
second panel up. Thank you.
    (Pause.)
    Mr. Collins. If we could have the witnesses grab a seat we 
will get going here. All right, we will just wait a second for 
Detective Finley to join us.
    OK, now that the panel is here we can get moving on the 
second panel. During this panel discussion we are going to be 
talking about H.R. 2031, the Anti-Swatting Act of 2015; H.R. 
3998, Securing Access to Networks in Disasters, or SANDy Act; 
H.R. 4111, the Rural Health Care Connectivity Act of 2015; and 
H.R. 4190, the Spectrum Challenge Prize Act of 2015. So with 
that the witnesses each will have 5 minutes for their 
testimony. The lights there will let you know green is good, 
yellow means start to wrap up, and red means we are going to 
cut you off.
    With that Detective Sergeant Finley, we will begin with 
you. Welcome, and thank you for your testimony.

    STATEMENTS OF DETECTIVE SERGEANT B.A. FINLEY, CRIMINAL 
 INVESTIGATIONS DIVISION, JOHNS CREEK POLICE DEPARTMENT, JOHNS 
 CREEK, GEORGIA; SCOTT BERGMANN, VICE PRESIDENT OF REGULATORY 
  AFFAIRS, CTIA--THE WIRELESS ASSOCIATION; AND DAN HOLDHUSEN, 
    DIRECTOR OF GOVERNMENT RELATIONS, GOOD SAMARITAN SOCIETY

                    STATEMENT OF B.A. FINLEY

    Mr. Finley. Can you hear me OK, Mr. Collins?
    Mr. Collins. Yes, sometimes you do have to lean close to 
the microphone.
    Mr. Finley. All right.
    Mr. Collins. We appreciate that.
    Mr. Finley. Thank you for your time, sir. Again, thank you, 
Mr. Collins, Ranking Member Eshoo. Thank you to all the 
members. Again, my name is Detective Sergeant Finley from the 
Johns Creek Police Department in Johns Creek, Georgia. A 20-
year veteran of law enforcement, I am currently the supervisor 
of a criminal investigations unit in my department. The 
majority of the crimes I investigate are internet and cyber 
related crimes, and over the last couple of years I have had 
quite a bit of experience and success investigating swatting, 
hoax 911 calls in which spoofing technology was utilized.
    But first, let me say it is an honor and a privilege to be 
here today, be in front of this committee and provide testimony 
on these important issues. And some of the things that I will 
speak of today are, quite a few of them are listed in my 
written stuff and I won't go over each and every one of those. 
But I will just give you a couple of examples of some of the 
things I have been involved in.
    In 2014, I was the lead investigator in a multi-state and 
international swatting investigation that involved a serial 
swatting suspect who had swatted 40-plus cities here in the 
United States and Canada. He had terrorized multiple families 
all over the United States and was responsible for hundreds of 
thousands of dollars in wasted time and resources by local and 
federal law enforcement officers responding to these fake 
incidents. He used VoIP technology as well as anonymizer Web 
sites, spoofing technology, multiple emails, and social media 
profiles to hide himself.
    During this same time period, I was investigating another 
swatting hoax 911 incident involving an individual who lived up 
in the Northeast portion of the United States and in his hoax 
he was using several layers of spoofing technology. He actually 
had a spoofing phone app. He actually created his own spoofing 
Web site, and then ran that through a nationally known spoofing 
company.
    He also incorporated the VoIP services as well, and as you 
can imagine it took quite some time to sort through all of this 
to find him out of this multi-layer spoofing. He also used some 
voice-disguising software on that which made it even more 
difficult to finally uncover who he is.
    But in a lot of these situations we talk them out or you 
hear on the news about the incident that was called in, how 
many law enforcement were involved, how many ambulances and all 
that other stuff, and a lot of people, I think, forget about 
the actual victim, what happens to them. And sometimes I don't 
think they really understand that they suffer some intense 
emotional distress and trauma as well.
    In one of these incidents that I investigated, a male 
caller had called our 911 center and he said that all right, he 
said I killed the mom, I killed the dad, I killed the little 
boy in the house and I have got the little girl right here and 
I need $30,000 or I am killing her too. The only people that 
were present in the home that day were a nanny and a 
babysitter. There were two small children in the home at the 
time of the swatting call. Mom and Dad were both gone. They 
both found out by friends calling them and telling them that 
they had seen their house on the news and that something 
horrible had happened there.
    So imagine as a parent that you get a call and you rush 
home thinking it is your entire family that has been killed. 
And as you get there you see multiple police vehicles lining up 
and down the street, police officers in this cul-de-sac 
pointing rifles at your home, EMS crews and stretchers are out 
on the street with ambulances and stretchers standing by for 
resulting casualties.
    I was there that day and I saw that mother as she was 
running through her neighbors' yards trying to get to the home. 
She was in a panic. She was totally distraught and had a look 
of horror on her face. We had to physically restrain her and 
tell her that her children were fine and that they were sitting 
in the back of our fire chief's vehicle. And to see the raw 
emotion pour out of that woman that day as she embraced her 
children and just sobbed out loud it affected everyone there.
    That is when you realize the impact that these swatting 
hoaxes can have on these victims, and it truly makes you angry 
to know that someone did this for fun and it motivates you to 
want to go find out who this person is and find them. It also 
makes you wonder what type of person would derive some type of 
enjoyment out of doing this to people.
    Some of the other crimes I investigated involve the 
spoofing, except one of them is quite popular this time of year 
and that is the IRS scam where people call and then they will 
use the local IRS number to appear on your phone and say that 
hey, we are from the IRS. You owe us money. We are either going 
to lock you up or deport you or whatever, and people readily 
pay this money because they are scared to death of the IRS.
    Another scam is the arrest warrant scam where they call up 
and say you have a warrant for your arrest. We are going to 
take you to jail if you don't pay this amount of money. People 
that don't have normal contact with law enforcement don't 
realize that we don't call you and tell you we have warrants 
for your arrest. We show up at your house to come get you.
    But these are just a few examples of the criminals that 
utilize spoofing technology to facilitate their crimes. I hope 
it has given you a little bit of a better understanding of what 
goes on in these situations. They are not harmless pranks as 
some might describe them. When you see the toll it takes on 
some of these families that have gone through some of these 
situations you will understand.
    We do need good legislation to deal with this issue. As our 
technology increases so will these incidences. It is important 
to note that these criminals will always update their 
techniques to use the most recent technology to help further 
their criminal enterprise. They will always use and abuse any 
new technology to help them exploit companies or people. And at 
the end of the day the American people are going to look to 
both of us for help. They are going to look to you to make the 
good laws and they are going to look for me to enforce them.
    I thank you for your time today and for the honor and 
privilege of being here before this institution and talking to 
you guys, and I will be happy to entertain any questions you 
may have.
    [The statement of Mr. Finley follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mr. Collins. Thank you for sharing that testimony. There 
are things we can't conceive of and this happens to be----
    Mr. Finley. Yes, sir.
    Mr. Collins [continuing]. In that category, so we may have 
some other questions afterwards. Thank you very much.
    Mr. Finley. Not a problem, sir.
    Mr. Collins. Mr. Bergman, you are now recognized for 5 
minutes.

                  STATEMENT OF SCOTT BERGMANN

    Mr. Bergmann. Thank you to the chair, and thank you to 
Chairman Walden and Ranking Member Eshoo and members of the 
subcommittee for the opportunity to provide CTIA's influence on 
four of the initiatives that you will consider today. CTIA 
appreciates this subcommittee's continued interest in wireless 
policy in efforts to keep Americans safe and connected while 
encouraging innovation and investment in the world's most 
vibrant wireless marketplace.
    CTIA has a long history of working closely with this 
committee to address public safety and emergency preparedness. 
From the adoption of 911 to wireless emergency alerts and 
FirstNet we have partnered with you to help keep Americans 
safe. In that vein, we appreciate Ranking Member Pallone's 
introduction of H.R. 3998. The district he represents suffered 
great damage from Superstorm Sandy.
    Mr. Collins. Excuse me. Is your microphone on?
    Mr. Bergmann. Thank you, sir. The district he represents 
suffered great damage from Superstorm Sandy, and lessons from 
that experience spurred the SANDy Act. I am pleased to report 
that H.R. 3998 and corresponding interest from Chairman Wheeler 
and the FCC have encouraged meaningful dialogue about steps to 
improve disaster preparedness.
    Carriers are making progress toward a framework that would 
address many elements in the bill, including identifying new 
ways to help consumers be prepared when disaster strikes, 
making sure that critical public safety personnel can contact 
wireless providers, engaging local governments to enhance their 
readiness, and giving providers flexibility to help one another 
restore service. Given this progress, we do not consider new 
legislative or regulatory actions necessary, but we absolutely 
commend Representative Pallone for his leadership.
    Turning to H.R. 4190, CTIA supports the Spectrum Challenge 
Prize Act. CTIA's members invest heavily in research and 
development to improve spectral efficiency, but with demand for 
mobile broadband continuing to rise more progress is needed. A 
challenge program such as that proposed by Representative 
Matsui may incentivize breakthroughs that can benefit consumers 
and our economy.
    CTIA believes that a comprehensive approach to wireless 
policy should focus on efficiency and also on identifying 
additional spectrum and streamlining processes for deploying 
network architecture. CTIA commends Chairman Walden and the 
subcommittee for your work to expedite the deployment of 
communications infrastructure on federal properties and the 
approval of H.R. 1641, the Federal Spectrum Incentive Act. We 
would also highlight the FCC's important efforts to make 
available spectrum above 24 gigahertz which offers promise as 
we move towards 5G services. We welcome your help in ensuring 
that the Commission adopts rules this summer to bring high-band 
spectrum to market. Collectively, these initiatives will help 
the U.S. retain its world leadership in advanced wireless 
services.
    Moving to the Lifeline bill, CTIA's views are informed by 
two main points. First that all Americans should have access to 
high quality communication services, and second that Universal 
Service policies should recognize consumers' increased 
preference for wireless services. While CTIA appreciates the 
subcommittee's interest in ensuring a more efficient Lifeline 
program, we are concerned that a cap will inherently exclude 
low-income consumers that Lifeline is intended to support. CTIA 
is also concerned that eliminating support only for mobile 
voice services would reverse longstanding consensus that USF 
policy be technology neutral.
    The subcommittee may wish to consider whether it would be 
appropriate to transition the entire USF program to a general 
revenues model. Wireless consumers today bear almost half of 
the annual $8 billion USF contribution burden, while 75 percent 
of that support goes to non-wireless services. A general 
revenues approach would give this subcommittee the opportunity 
to consider funding levels, affordability, and inter-industry 
subsidies implicated under the current approach.
    Finally, CTIA supports H.R. 4889, the Kelsey Smith Act, 
with the addition of one critical provision. We urge the 
inclusion of clear, unambiguous language to ensure that any 
carrier complying with the act is protected from civil or 
administrative liability. Adoption of appropriate liability 
safeguards will ensure that carriers that comply with law 
enforcement requests have the necessary protection to aid in 
the response to critical life-threatening emergencies.
    Thank you for the opportunity to testify today and I look 
forward to your questions.
    [The statement of Mr. Bergmann follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Mr. Collins. Appreciate your testimony. Now Mr. Holdhusen, 
you have 5 minutes.

                   STATEMENT OF DAN HOLDHUSEN

    Mr. Holdhusen. Thank you, Mr. Collins and Ranking Member 
Eshoo and other members of the subcommittee. I am here today 
and have the honor to appear before you to support bipartisan 
legislation H.R. 4111, the Rural Health Care Connectivity Act 
of 2015. This was sponsored by subcommittee members Lance, 
Loebsack, and Cramer. I respectfully ask that my written 
testimony be submitted.
    My name is Dan Holdhusen and I am the director of 
government relations for the Evangelical Lutheran Good 
Samaritan Society. The society is the nation's largest not-for-
profit faith based senior care and services organization. It 
was founded in 1922 and is headquartered in Sioux Falls, South 
Dakota.
    We offer a broad spectrum of senior services including not 
only skilled nursing care, but also home health, respite care, 
assisted living, post-acute care, senior apartments and 
affordable housing, and hospice care. Currently, the society 
serves more than 240 locations across the country in 24 states, 
caring daily for more than 30,000 people and employing more 
than 23,000 staff members.
    On behalf of the society and the American Health Care 
Association, which is the nation's largest association of long 
term and post-acute care providers, I would like to express our 
strong endorsement of the Rural Health Care Connectivity Act. 
If enacted, this bill would offer substantial and critical 
support for not-for-profit and public providers of skilled 
nursing care that operate in rural and frontier areas across 
the country.
    The society currently operates 168 skilled nursing 
facilities, also called SNFs, of which 122 or about three-
quarters of those are in the Universal Service Administrative 
Company defined rural areas. In fact, we have facilities in 
many of your districts, including Oregon, Iowa, North Dakota, 
Ohio, Kentucky, and Kansas. These SNFs play a critical role in 
the delivery of care in rural and frontier areas of our country 
and are significant and growing pioneers in telehealth 
services.
    Like many providers serving an aging population, the 
society is a provider of skilled nursing care in many rural 
areas of the country. As such, we are dependent on the growing 
use of technology to deliver needed care and services to 
locations that do not have the benefit of nearby health clinics 
or rural hospitals.
    The use of broadband networks is critical to accommodate 
the delivery and exchange of data, images, web streaming, 
electronic medical records, and other health information that 
is vital to ensure that the day-to-day care needs of residents 
and patients are met. Further, an important resource for 
assisting with the funding of these broadband networks is the 
Universal Service Fund that is administered by the FCC.
    Although the majority of our health care partners in rural 
areas of the country are afforded the privilege of accessing 
Universal Service Fund to assist with funding broadband 
investment, skilled nursing facilities are not. It has been our 
long held belief that Congress fully intended to make rural, 
not-for-profit, long term care SNFs as eligible health care 
providers under Section 254 of the 1996 Telecom Act. In fact, 
on several occasions we have provided both informal and formal 
comments to the FCC expressing these strong held views.
    With the passage of this bill, the FCC will have the 
direction it needs to continue to develop the Healthcare 
Connect Fund and implement the health care broadband experiment 
program so that SNFs can benefit along with other covered 
health care providers.
    In conclusion, we are extremely grateful for your 
leadership on this important issue that deeply impacts some of 
society's most vulnerable populations, our nation's seniors, 
and we strongly urge the committee's swift adoption of the 
bipartisan bill, especially given that the bill was recently 
scored by the CBO as resulting in a net reduction in the 
deficit. We hope to get this bill across the finish line soon 
and to have access to these funds within a year of enactment.
    Again, we are particularly thankful to the number of 
members, namely Representatives Lance, Loebsack, and Cramer for 
their support of this bill. I thank you for allowing me the 
opportunity to strongly support the Rural Health Care 
Connectivity Act and I stand ready to respond to any questions. 
Thank you.
    [The statement of Mr. Holdhusen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    Mr. Latta [presiding]. Well, thank you very much, and I 
apologize for being out. We have two other, or two 
subcommittees meeting in one hearing room today and so we have 
multiple things going on, so I appreciate you all being here 
today.
    And if I could start with the first question to Sergeant 
Finley, one of the things the bill does is require that the 
perpetrator reimburse law enforcement agencies involved in 
responding to a swatting call for the cost of the response. I 
have a two-part question, if I may.
    The first is looking back at some of the cases you have 
worked on could you give us a range or idea of the kind of 
dollars we are talking about? And then absent any reimbursement 
like this bill would allow, who bears the burden and what 
impact does that have on a police department like yours?
    Mr. Finley. Well, sir, to answer part of the second 
question first, I guess it would depend upon the amount of 
personnel that was out there, obviously on the initial one the 
response to it.
    But the part that takes up the most time obviously is the 
post-investigation side of this in trying to find out who this 
person is, because they are not quick investigations. They are 
long, labor intensive, because there are so many different 
things that you have to follow down and a lot of these places 
that provide these services are not even in the United States. 
They are in other foreign countries. And even though we may 
have mutual law enforcement treaties with those, me as a 
municipal police officer trying to call a guy in Moscow at the 
Russian Federation and to give me records for something that 
went through a VPN that he owns is probably not going to 
happen, the fact if he even keeps records.
    So it depends, I guess, on some situations. Some of the 
swatting incidents that I have been involved in after the fact 
have been well up into the hundreds of thousands of dollars. 
One that I spoke with some officers around the New York area, 
they had an individual that called in about a boat that was 
sinking off the coast out there that not only involved the 
NYPD, it involved the New Jersey State Police, I think the 
United States Coast Guard, Homeland Security.
    They had at least, I think, eight different aircraft out 
there for about 4 hours. If you know anything about aircraft, 
it takes quite a bit of money to operate one of those and the 
air crew that are on there, not to mention all the boats that 
were in the water doing grid searches for about a 16-mile block 
looking for this individual, only to find out that they were 
out there for, I think, right at 9 hours to find out that this 
was a hoax.
    The big thing is we are all in law enforcement and in all 
first responders we are there to help people. And when you call 
us and tell us bad things are happening, we are going to come 
there and help. And it is very frustrating when we get to these 
locations and find out that we mobilized all of this equipment, 
brought all of these people down here, because there is a big 
thing obviously that it takes us away from other things.
    And we don't know any more over the way the country is 
going and the world is going, we don't know if these things are 
real or not. You call and give us a fraudulent call and say 
there is an active shooter somewhere, we know that just from 
past experiences in the last few months there is no shortage of 
crazy people. There is no shortage of people who want to come 
over here and do harm to our country and to our people.
    So it is very frustrating when we have to expend these 
types of resources to go to these different locations only to 
find out that there is nothing there.
    Mr. Latta. Can I interrupt for one second?
    Mr. Finley. Yes, sir, you can.
    Mr. Latta. And let me ask, when you say like the Russian 
Federation, how often do you get a call or calls that would 
come from a foreign country like that that you would be 
investigating?
    Mr. Finley. There are quite a few individuals that we have 
got from foreign countries. I have been involved with one, he 
was from Canada. Even though it is right next door it is a 
foreign country. They are not real big on responding to any 
legal processes that come from the United States into Canada 
unless it originates with the RCMP up there and their 
jurisdiction and/or their local police.
    So you have to involve all the legal attaches from their 
country to our country, federal government here and the federal 
government there. It is a long arduous process. But the 
relationships I have made with the guys in the FBI Atlanta 
Cyber Program as well as the United States Secret Service down 
in my area, they routinely find individuals in other countries 
and we have to partner with them to go in and get these people 
into custody.
    And a lot of times we end up doing the prosecution in the 
home country because it is going to be cost-prohibitive for us 
to go and get this person and bring them back down into the 
United States. We can work with them and say, look, we are 
going to do the same for you if you will do the same for us. 
And it is just a long process to do that.
    But I mean, to put a dollar amount on it I cannot tell you. 
I have probably spent a thousand something hours investigating 
just on the two of the cases that I had that were running 
simultaneously. One was a kid up here in the northeast United 
States, the other one in Canada. I mean that is not to count, 
you count the other 43 agencies that I linked into and all the 
time that I spent coordinating with the other 43 agencies, 
because I ended up being the go-to guy in the United States for 
all of them to send their information to and funnel that 
through the FBI Atlanta office up to the RCMPs.
    So we were the clearinghouse, so to speak. We sat down with 
40-some odd cases and went through each and every one of them 
to try to find out that the top 10 best cases that we had to 
send up here on this individual, because he literally was just 
an internet terrorist. There was no other word for him but he 
was an internet terrorist. The things that he did we could talk 
for the rest of the afternoon, and the horrible acts that he 
did to young people, to young ladies especially was his target.
    Mr. Latta. Thank you. If I could ask the gentlelady for her 
indulgence, since we have three members right now would you 
mind if we did just second questions, the follow-up, if we 
could do five each and then come back and do five again? Would 
that be acceptable?
    Ms. Eshoo. What time do you think we are going to finish?
    Mr. Latta. We will be about 15 minutes or so.
    Ms. Eshoo. No, that is fine.
    Mr. Latta. OK. OK, the chair recognizes the gentlelady, the 
ranking member of the subcommittee, from California.
    Ms. Eshoo. Thank you, Mr. Chairman, and thank you to the 
witnesses. You did an excellent job. To Mr.--how do you 
pronounce your name, Holdhusen?
    Mr. Holdhusen. Holdhusen, yes.
    Ms. Eshoo. Holdhusen. Thank you for your work. It is never 
to be taken for granted what nonprofit and church 
organizations, charitable organizations do in our country. It 
is nothing short of remarkable, so thank you to you for your 
work. And I think that the bill that you are here in support of 
is a good one. It is going to help people, and that is what I 
came to Congress to do, so not to hurt anybody but to help 
people.
    To Mr. Bergmann, the recently adopted FCC Lifeline reform 
order phases out, as you know, the support for voice-only 
services by '22. Does your association support that provision?
    Mr. Bergmann. So we supported evolution of Lifeline to 
broadband services. What we thought was critical was to have a 
sufficient transition timeline so that the nine million or more 
low-income consumers who have mobile voice services today can 
make that transition.
    Ms. Eshoo. But what is the difference between the 
legislation we are considering today and the recent FCC action 
with respect to the phase-out of voice-only services, because 
there is a difference.
    Mr. Bergmann. So what we pushed for was a longer transition 
period which is what the FCC adopted. We certainly appreciate 
their sensitivity with that transition so that as that program 
evolves from voice to broadband low-income consumers can make 
that transition.
    Ms. Eshoo. And to Sergeant Finley----
    Mr. Finley. Yes, ma'am.
    Ms. Eshoo [continuing]. You are a great witness, you really 
are.
    Mr. Finley. Thank you, ma'am.
    Ms. Eshoo. Your professionalism is right out there in 
front, and the passion that you bring to your professionalism, 
and I think that it is very important.
    Mr. Finley. Thank you so much.
    Ms. Eshoo. In the cases where there are minors that are 
inflicting this great harm on people, how do you think the 
legislation deals with the fine that is attached to it?
    Mr. Finley. Well, as far it goes----
    Ms. Eshoo. What is the best way for us to do that? It 
doesn't seem to me realistic that we are going to extract what 
should be extracted in terms of a penalty. And my sense is that 
from what you said that there are a lot of young people that 
are doing this.
    Mr. Finley. Yes, ma'am. There are some adults that actually 
do this. It depends on where they are at and when they graduate 
from 17 to 18 years old, depending on what they classify as an 
adult. But the biggest issue with anybody that is a juvenile, 
prosecuting them in the federal system is almost impossible or 
they are not going to do it. I mean, short of some kind of 
heinous crime, terrorism or mass homicide, they are not going 
to be prosecuted in federal court.
    Ms. Eshoo. But couldn't we structure this so that there is 
responsibility either on the part of the individual or the 
family?
    Mr. Finley. Yes, ma'am, we very well could.
    Ms. Eshoo. In terms of the fines?
    Mr. Finley. Yes, there is quite a few states that do have 
state legislation on swatting.
    Ms. Eshoo. What is the best one?
    Mr. Finley. You want to know who is the best one, I will go 
ahead and tell you. I think Georgia is because I just helped 
write the one for the state of Georgia.
    Ms. Eshoo. OK, great.
    Mr. Finley. We are waiting on our governor to sign it right 
now. But it all depends. The biggest thing is they have to have 
some type of recourse for the victim, obviously the heartache 
and whatever it put them through. But one thing that I found 
even when we were doing our law in Georgia, one of our victims 
was there at the state capital when we were doing some 
subcommittee hearings, and it was a year and a half later. And 
she was standing in the hall and we started talking about it 
and she just broke down and started crying.
    Ms. Eshoo. Over what she had done?
    Mr. Finley. And I am thinking to myself, she loves the 
police. She loves everything, but when her kids are outside in 
the street if one of our cars comes down the street that is 
doing neighborhood patrol she freaks out and thinks, oh my 
gosh, are they coming to my house? Because unfortunately for 
her in their situation, they used to live in a location where a 
person that they were actually targeting was this family had 
nothing to do with it. And one of them, they did the initial 
swatting at the house and then the kid in Canada came back and 
did a follow-up eight days later. So two times within a couple 
weeks their family was influenced by this.
    Ms. Eshoo. Well, do you have any advice for us on----
    Mr. Finley. Well, this law does a good job. It does some 
really good stuff and it does handle a lot of spoofing, but 
what happens when they don't spoof? What do we do then? What if 
they don't use spoofing technology in this? How are we going to 
address that situation? I know there is some other, there is 
a----
    Ms. Eshoo. Well, there an awful lot of laws that are----
    Mr. Finley. Yes, ma'am.
    Ms. Eshoo [continuing]. Written in reaction to less than 
good things taking place, so I guess that is when we would 
address it.
    Mr. Finley. Absolutely.
    Ms. Eshoo. But one bill, I don't think, is going to do 
that. I think that is what you're instructing us.
    Mr. Finley. Yes, ma'am. There is actually, Congresswoman 
Clark from Massachusetts, she has an interstate swatting bill 
that covers a lot of things I think that may be missing in this 
respect, OK. And----
    Ms. Eshoo. Well, maybe we should take a look at that, Mr. 
Chairman.
    Mr. Finley. Those are two very good things that are--her 
and I, we were down at South by Southwest a couple months ago 
speaking on the same issue and talking about some of that at 
the inaugural Online Harassment seminar because she deals with 
a lot of the same issues. And quite honestly, I----
    Ms. Eshoo. Well, that is very helpful to us though. I think 
that we should review and see what Congresswoman Clark has in 
her bill that maybe we can merge them, or strengthen one 
because of the other.
    Mr. Finley. Well, she will give you some good testimony 
because she got swatted a couple of months ago.
    Ms. Eshoo. All right.
    Mr. Finley. That is what I told her office. I said anytime 
you stick your neck out and do any of this stuff just know that 
you are going to be a target.
    Ms. Eshoo. Well, thank you to the three of you. You cover 
very important sectors of our country from law enforcement to 
communications to charitable organizations. Thank you very 
much.
    Mr. Latta. Thank you very much. The gentlelady's time has 
expired and the chair would now recognize the gentleman from 
North Dakota for five minutes.
    Mr. Cramer. The light is green, but it is clearly not on. 
How about if I slide down here? Will that work? How is that? 
That is not working either. How about if I talk really loudly? 
Oh, here we go. I bet this one will work.
    All right. Well, thank you, Mr. Chairman. Thanks to all of 
the outstanding witnesses. It really was great testimony. I 
agree with the ranking member.
    Mr. Holdhusen, thank you especially for being here on 
behalf of our bill, for your incredible testimony. But first 
let me say thank you for the incredible work of the Good 
Samaritan Society in North Dakota, South Dakota, throughout the 
Midwest. As you know, I am very familiar with your facilities 
and many of your residents over the years, and I appreciate 
your good work.
    And getting to the point of this bill, I appreciate very 
much that you referenced in your testimony the fact that the 
score came back as a net gain, if you will, for the taxpayers. 
But even at that, even with that sort of static scoring system 
in Congress, I don't think it adequately captures what in my 
mind is the real cost/benefit analysis.
    Anytime we provide greater access, whether it is through 
critical access hospitals, skilled nursing facilities, home 
health care, the use of technology to increase access certainly 
is good for the residents and the patient, certainly helpful to 
those that are providing it, but I think sometimes we don't 
adequately address or speak of the other benefits of that not 
just to the residents and the health care provider but to the 
taxpayers.
    Is there any type of an example you could think of that I 
could use as a cost/benefit analysis where perhaps access to 
the technology provides somebody the opportunity whether it is 
in preventive, a preventive measure or maybe an emergency that 
is captured that wouldn't otherwise be addressed, because I 
just think there is a lot more to this story even than we know 
today.
    Mr. Holdhusen. Yes, sir. Thank you, Congressman. Indeed, 
there are many stories even beyond anecdotal and we are 
beginning to amass empirical data that identifies that. I can 
give you one very concrete example and that is with what we 
call our <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c70554a55525b6b5950507c74535159">[email&#160;protected]</a> program. It allows a couple of major 
objectives. One is, and most importantly it is patient- or 
individual-centric, it allows individuals to stay in their 
living environment independently for as long as possible.
    It is a motion sensor technology that captures different 
data points and sends it through broadband, which is why this 
bill is important, and it goes to a place where in a remote 
location where the preconditions can be identified and identify 
things that will, from a practical point of view, begin to bend 
the cost curve, eliminate or reduce the number of emergency 
room visits, eliminate rehospitalizations which are very, very 
costly to the system.
    In addition, kind of the social benefits beyond that is it 
provides not only the opportunity to be independent for much 
longer, but also security of families. We can live states away, 
rely on technology to follow as a consumer, my mother who now 
lives three states away, and identify many things that are 
going on in her particular life.
    So there are social aspects. In particular, we look at the 
individual-centric to allow individuals to stay in their homes 
much longer, and then the cost savings associated with 
identifying preconditions which avoid those hospitalization, 
gets in front of the health conditions prior to the time that 
they actually exist and then begin to cost the care system much 
more money.
    Mr. Cramer. Mr. Chairman, I will not run the risk of 
screwing up a really good answer, so I will yield back the 
balance of my time.
    Mr. Latta. The gentleman yields back. And I was going to 
actually give you an extra minute since you were having 
problems with your mic there so, but the gentleman yields back. 
The chair now recognizes the gentleman from New Jersey, the 
ranking member of the full committee, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask my 
questions of Mr. Bergmann. I mentioned in my opening statement 
that Hurricane Sandy hit my district particularly hard and I 
have spent the last three years studying what went wrong and 
how we can do better next time. And the result of that work is 
a bill I introduced last year called the SANDy Act which is one 
of the bills we are considering today. It would ensure, it 
would help ensure that people have essential access to 
communications networks when they need them the most.
    In your testimony you note that telecom carriers are making 
progress towards a framework that will address many of the 
elements included in my bill, and I thank you for your work and 
appreciate the industry's commitment to working with us to help 
solve these problems. In my experience, regulations are not 
always necessary when an industry steps up and commits to 
solving a problem voluntarily.
    So that said, I am interested in hearing exactly where the 
industry is headed on these issues. Could you explain what 
steps industry is taking to address some of these issues in my 
bill and how long you think it would take to reach a 
resolution?
    Mr. Bergmann. So thanks so much for the question, and thank 
you, Congressman, for your leadership on this issue. We know 
how important it is and the introduction of the SANDy Act I 
think really did spur meaningful industry conversations.
    As you have noted, we have been hard at work to develop a 
consensus framework on how to improve preparedness for 
consumers, for communities, and then for caregivers as well, 
too. I am confident that the wireless industry has been a good 
partner in this effort and will continue to be so, and it is 
certainly very helpful that we will be able to coordinate with 
your office to have that effort bear fruit very soon.
    Mr. Pallone. But you don't want to talk about any specifics 
now that the industry is working on?
    Mr. Bergmann. Sure, absolutely. So I would sort of put 
things into a couple different buckets, working to make sure 
that consumers have all of the information that they need and 
that they are prepared in advance of disaster situations, 
making sure that local governments as well, too, are educated 
and ready so that municipal governments can respond. I would 
say also, making sure that critical public safety personnel 
have the ability to contact wireless providers in the case of a 
disaster and then finally, making sure that providers 
themselves can work together where appropriate to make sure 
that we can restore service quickly. Those are the four areas 
that are really a focus for us.
    Mr. Pallone. Now what about the 911 call centers? Are you 
working with local governments and 911 call centers to make 
sure that public safety officials can contact carriers during 
an emergency? Do you want to talk about that at all?
    Mr. Bergmann. Sure. Obviously, as you have heard throughout 
the day as consumers rely on wireless service more and more to 
reach public safety, by some estimates over 70 percent of 911 
calls coming from wireless phones, we think that is absolutely 
critical. And communication between PSAPs and providers is very 
much something that we are thinking about as well too.
    Mr. Pallone. Now let me go to the Lifeline bill which I 
have been critical of. We have heard a lot about needing to 
control the costs of the program, and I have said that one way 
to fix this is to adopt policies that help people find well 
paying jobs so they don't need to subscribe to the Lifeline 
program. But are there any other ways to help control costs or 
improve the program without taking phones away from people who 
need them?
    Mr. Bergmann. Sure. So for a number of years CTIA has 
worked closely to try to improve program administration. Going 
back to 2012, industry worked voluntarily to help develop the 
duplicates database to make sure that the same subscriber 
didn't get more than one Lifeline subscription. But I think the 
most critical reform there is the adoption of a national 
verifier. That is something that CTIA has pushed hard for for a 
number of years and something that I think that all parties can 
agree is critical to making sure that Lifeline services get to 
the people who need it, but only to the people who are eligible 
to receive it.
    Mr. Pallone. OK. Mr. Chairman, I just wanted to ask more 
thing. I know CTIA has talked a lot about making sure we enable 
next generation wireless technology, and I believe we should 
examine and have a leverage of benefits of new technology to 
help address priorities like addressing inequality. Can you 
tell us how next generation wireless technology could help the 
people stuck on the wrong side of this inequality gap?
    Mr. Bergmann. So as we think about what the next generation 
of wireless will be and folks are looking toward 5G, there will 
be tests here in the U.S. this year. There is a development of 
standards. I think some of the most exciting applications of 5G 
in the Internet of Things are around the policy priorities that 
are so important to this community and this committee, things 
like improving health care, improving education.
    Smart cities is one of the key focuses for 5G technology, 
so making sure that we are able to launch autonomous vehicles 
that can cut down on congestion, reduce energy loss. Trying to 
have that hundred times increase in the number of devices that 
are connected is why you see mayors across the country lining 
up to become the first smart city.
    So that is some of what we are looking forward from 5G, and 
we certainly appreciate this committee's help and support 
delivering spectrum, speeding infrastructure deployment to help 
us get there.
    Mr. Pallone. All right. Thank you. Thank you, Mr. Chairman.
    Mr. Latta. Well, thank you very much. And seeing no other 
members here to ask questions, I would just like to first thank 
our witnesses for being with us today. And I know that the 
gentleman from Oregon, the chairman of the subcommittee, the 
gentlelady from California, the ranking member of the 
subcommittee, and also the gentleman from New Jersey, the 
ranker of the full committee, we thank you for your testimony 
today. It was very, very informative. And if there is nothing 
else to come before the subcommittee today, we will stand 
adjourned.
    [Whereupon, at 12:53 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared statement of Hon. Doris O. Matsui

    Thank you Mr. Chairman. I'm pleased we are discussing my 
Spectrum Challenge Prize Act of 2015 today.
    Spectrum has become an increasingly valuable resource due 
to the growing demands of our modern mobile economy it is the 
invisible infrastructure of the 21st century.
    My Challenge Prize legislation which I introduced with 
Senator Tom Udall would encourage wireless innovation by 
creating a federal spectrum challenge prize.
    The spectrum challenge competition would help incentivize 
innovators and entrepreneurs to develop technologies that 
eclipse the current state-of-the-art.
    Challenge prizes have a long track record of spurring 
innovation from early navigation efforts to more recent 
driverless car technology.
    The U.S. has always been a global leader in wireless 
technologies, but we need to continue to innovate in order for 
our wireless economy to continue to grow.
    The Spectrum Challenge Prize Act creates a new opportunity 
for the federal government and the private sector to work 
collaboratively in the pursuit of a spectrum efficiency 
breakthrough which is ultimately a victory for American 
consumers.
    While I'm pleased we are considering my Spectrum Challenge 
Prize bill, I'm disappointed that my Republican colleagues are 
using today's hearing to attack the Lifeline program.
    Two weeks ago, the FCC took a major step forward in our 
efforts to close the digital divide. Lifeline will support 
broadband connectivity and help low income households get and 
stay connected to the communications services they need to 
participate in the 21st century economy.
    Just as we are celebrating this progress for struggling 
families across the country, our Republican colleagues bring up 
legislation to take us backwards. A cap on Lifeline only 
artificially restricts the number of people this program can 
help.
    Mr. Chairman cutting off Lifeline means cutting off 
economic opportunity for low income Americans. I urge my 
colleagues to reject any legislation that places a cap on 
Lifeline.
    Thank you and I yield back.
                              ----------                              


               Prepared statement of Hon. Elliot L. Engel

    Thank you, Chairman Walden and Ranking Member Eshoo, for 
convening today's hearing and for your consideration of my 
bill, H.R. 2031, the Anti-Swatting Act.
    ``Swatting'' refers to the act of provoking law enforcement 
to respond to a phony emergency. The act gets its name from the 
SWAT teams that are often deployed to respond to these hoaxes.
    Though swatting might sound like a prank, its consequences 
are no laughing matter.
    According to the FBI, a single SWAT team deployment can 
cost thousands of taxpayer dollars. Swatting also risks injury 
to the unassuming victims who are present when law enforcement 
arrives at an alleged crime scene, as well as to the officials 
who respond to these hoaxes, anticipating danger. On top of 
that, swatting wastes law enforcement's precious time, keeping 
them from responding to actual, life-threatening emergencies.
    I introduced the Anti-Swatting Act to address these very 
serious risks.
    The Anti-Swatting Act would expand on the Truth in Caller 
ID Act, which Chairman Emeritus Joe Barton and I introduced and 
was signed into law in 2010.
    My bill would increase penalties for people who falsify 
their caller ID information to mislead law enforcement. This 
technological trick called ``spoofing'' allows swatters to make 
law enforcement believe they are calling in an emergency from a 
different phone number or location. My bill would also force 
swatters to reimburse the emergency services that squander 
valuable funds responding to their invented emergency.
    The goal of my bill is to dissuade potential swatters from 
wasting law enforcement resources and--most importantly--from 
putting their neighbors and emergency response teams in harm's 
way.
    I introduced the Anti-Swatting Act last year, following a 
string of swattings in my district. Incidents have also 
occurred in Tennessee, Ohio, New Jersey, North Carolina--the 
list goes on. It is my hope that this bill will keep additional 
communities from falling victim to these despicable crimes.
                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
